            INTEGRITY* EFFICIENCY* ACCOUNTABILITY * EXCELLENCE




                                      Mission
             Our mission is to provide independent, relevant, and timely
             oversight of the Department that: supports the warjighter;
             promotes accountability, integrity, and efficiency; advises the
              Secretary of Defense and Congress; and informs the public.


                                       Vision
            Our vision is to be a model oversight organization in the federal
            government by leading change, speaking truth, and promoting
            excellence; a diverse organization, working together as one
                 professional team, recognized as leaders in our field.




                         ············~····················
                         Fraud, Waste and Abuse
                        HOTLINE
                        1.800.424 .9098 • www.dodig.mil/hotline




For more Information about the whlstleblower protection, please see the Inside back cover.




                   Report No. DODIG-2014-0601
                                 INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                              4800 MARK CENTER DRIVE
                           ALEXANDRIA, VIRGINIA 22350-1500
                                                                        April14, 2014

MEMORANDUM FOR: UNDER SECRETARY OF DEFENSE FOR INTELLIGENCE
                GENERAL COUNSEL, DEPARTMENT OF DEFENSE
                DIRECTOR, DEFENSE INTELLIGENCE AGENCY
                DIRECTOR, NATIONAL GEOSPATIAL-INTELLIGENCE AGENCY
                DIRECTOR, NATIONAL RECONNAISSANCE OFFICE
                DIRECTOR, NATIONAL SECURITY AGENCY
                DIRECTOR, DEFENSE HUMAN RESOURCES ACTIVITY

SUBJECT: An Assessment of Contractor Personnel Security Clearance Processes in the
          Four Defense Intelligence Agencies (Report No. DODIG-2014-060)

We are providing this report for your review and comment.            We considered
management comments on a draft of the report when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. Please
see the recommendations table at page v. We request that the Office of the Under
Secretary of Defense for Intelligence provide us with documentation regarding the
milestones discussed in its comments. Recommendation A.3. has been redirected to the
Office of the General Counsel (OGC), Department of Defense. Request that OGC respond
to Recommendation A.3. within 30 days from the date of this report. Request that
Director, Defense Intelligence Agency, and Director, National Reconnaissance Office,
provide a response to Recommendation B.2.c. within 30 days from the date of this
report.

Request that you send your responses in electronic format (Adobe Acrobat file only) to
donald.dixon@dodig.mil . Copies of your responses must have the actual signature of
the authorizing official for your organization. We are unable to accept the /Signed/
symbol in place of the actual signature. Classified electronic format comments must be
sent via the Joint Worldwide Intelligence Communications System (JWICS) to
igdixde@dodig.ic.gov , or over the SECRET Internet Protocol Router Network (SIPRNET)
t o donald.dixon@dodig.smil.mil .

We app r eciate the courtesies ext end ed to our staff.
-    822 -4860, DSN 499 -7234 ,




                             Report No. DODIG-2014-0601 ii
(U) THIS PAGE INTENTIONALLY LEFT BLANK




         Report No. DODIG-2014-0601 iii
April 14, 2014

What We Did                                           Our Recommendations and Management Responses
Our objective was to assess: a) how, or if,           We recommend that the Under Secretary of Defense for Intelligence
substantiated investigations of misconduct            [USD(I)]: develop overarching policies governing operation of DCII and
were reported to Agency Clearance                     JPAS; expedite publishing new security policy; and advocate revising
Adjudication Facilities (CAF) and to the              EO 12968 to require that personnel security clearance adjudicative and
DoD Consolidated Adjudication Facility                due process actions continue, even if the contractor employee no
(DODCAF); b) if the referred investigations           longer has access to classified information. USD(I) concurred with
had been adjudicated; and c) the results of           these recommendations. We redirected revision of one directive to
those security adjudications.                         Office of General Counsel, DoD.

What We Found                                         We recommend that the Offices of Security of the Defense Intelligence
                                                      Agency (DIA), National Geospatial-Intelligence Agency (NGA), National
        There was a lack of effective
                                                      Reconnaissance Office (NRO), and National Security Agency (NSA),
        personnel security policy.
                                                      Offices of Security, develop formal procedures to ensure that reports of
        There was a lack of effective record
                                                      investigation into misconduct by contractor personnel are reported to
        keeping.
                                                      the appropriate adjudicative organizations; and ensure that the
        There was an avoidance of
                                                      appropriate security databases are populated with personnel security
        personnel security adjudication for
                                                      adjudicative determinations. The Agencies concurred with some of
        contractor personnel involved in
                                                      these recommendations and non-concurred with others. (See the
        misconduct.
                                                      report and Appendices D - G).
        There was a lack of personnel
        security information sharing.                 We recommend that the Directors of DIA, NGA, NRO, and NSA ensure IG
        There was a lack of connectivity              reports of investigation into contractor misconduct are reported to
        between the Defense Central Index             DODCAF. The Agencies concurred with this recommendation.
        of Investigations (DCII) and the
        Joint Personnel Adjudicative                  Lastly, we recommend that the Director, Defense Human Resources
        System (JPAS).                                Activity (DHRA), (1) work with the Genera l Services Administration to
                                                      add the Excluded Parties List System/System for Award Management
                                                      to the set of databases accessed by the Automated Continuing
                                                      Evaluation System that the Defens e Personnel Security Research Center
                                                      developed; and, (2) develop softwar e to automatically flag the
                                                      personnel secur ity adj udicative portio n of JPAS that a DCII fil e exists on
                                                      a specific Subject. The Defense Manpower Data Center manages both
                                                      JPAS and DCII. DHRA did not concur with action 1, but did concur with
Visit us on the web at www.DoDig.mil
                                                      action 2.




                                               Report No. DODIG-2014-0601 iv
Recommendations Table
      Management             Recommendation(s)       Date Comments         Recommendations
                            Requiring Additional       Requested       Requiring No Additional
                                 Comments                                      Comments
 Under Secretary of         8.1.a.                 October 15, 2014   A.l., A.2., 8.l.c., and C.
 Defense for Intelligence
 [USD(I)]
 USD(I)                     8.1.b.                 May 1, 2014
 usb(l)                     8.l.d.                 July 15, 2014
General Counsel,            A.3.                   May 14, 2014
 Department of Defense
 Director, Defense          8.2.c.                 May 14, 2014       8.2.a., 8.2.b., and 8.3.
 Intell igence Agency
Director, Nati onal                                                   8.2.a., 8.2.b., 8.2.c., and
Geospatial-lntelligence                                               8.3.
Agency
Director, National          8.2.a., and 8.2.c.     May 14, 2014       8.2.b. and 8.3.
Reconnaissance Office
Director, National          8.2.a.                 May 14, 2014       8.2.b., 8.2.c., and 8.3.
Security Agency
Director, Defense Human     8.4.                   May 14, 2014       E.
Resources Activity
Inspector General,                                                    8.3
Defense Intelligence
Agency
Inspector General,                                                    B.3 .
National Geospatial-
Intelligence Agency
Inspector General,                                                    B.3.
National Reconnaissance
Office
Inspector General,                                                    B.3.
National Security Agency




                                   Report No. DODIG-2 014-0601 v
Distribution:

 Secretary of Defense
 Deputy Secretary of Defense
Under Secretary of Defense for Personnel and Readiness
Assistant to the Secretary of Defense for Intelligence Oversight
Director, Office of Cost Assessment and Program Evaluation, OSD
Chairman, Senate Select Committee on Intelligence
Chairman, House Permanent Select Committee on Intelligence
Chairman, Senate Armed Service Committee
Chairman, House Armed Services Committee
Chairman, Senate Committee on Homeland Security and Governmental Affairs
Director of National Intelligence
Inspector General of the Intelligence Community
Director, Special Security Directorate, Office of the National Counterintelligence
    Executive/Security
Director, Office of Security, Central Intelligence Agency
Director, Office of Management and Budget
Deputy Director for Management, Office of Management and Budget
Director, Office of Personnel Management
Director, Federal Investigation Services, Office of Personnel Management
Archivist of the United States
Director, Defense Security Service
Inspector General, Defense Security Service
Chair, Council of the Inspecto rs General on Integrity and Efficiency
Inspector General, Defense Intelligence Agency
Director, Office of Security, Defense Intelligence Agency
Inspector General, National Geospatial-Intelligence Agency
Director, Office of Security, National Geospatial-Intelligence Agency
Inspector General, National Reconnaissance Office
Director, Office of Security, National Reconnaissance Office
Inspector General, National Security Agency
Director, Office of Security, National Security Agency
Director, Department of Defense Consolidated Adjudication Facility




                            Report No. DODIG-2014-0601 vi
Contents
Introduction .................................................................................................................. 1
    Background ..................................................................................................................................................... 1
    Objectives ....................................................................................................................................................... 1
    Scope and Methodology ............................................................................................................................ 1

Finding A. Lack of Effective Personnel Security Policy ............................... 2
Finding B. Lack of Effective Recordkeeping .................................................... 7
Finding C. Avoidance of Personnel Security Adjudication and Due
Process Issues ........................................................................................................... 24
Finding D. Lack of Personnel Security Information Sharing ................. 27
Finding E. Lack of Connectivity Between DCII and JPAS ........................ 30
Other Observation ............................................................................................................................. 32
Appendix A. Background ...................................................................................... 3 3
Appendix B. Scope and Methodology .............................................................. 35
Appendix C. Office of the Under Secretary of Defense for Intelligence
Response ..........................................................................................................37

Appendix D. Defense Intelligence Agency Response ................................. 40

Appendix E. National Geospatial-lntelligence Agency Response ............ .42

Appendix F. National Reconnaissance Agency Response .......................... 44

Appendix G. National Security Agency Respo nse .......................................47

Append ix H. Defense Human Resources Activity Response ..................... SO

Acronyms and Abbreviations ............................................................................. 52




                                                                                                                                                                           I

                                                   Report No. DODIG-2014-0601 vii
Introduction
Background
On September 5, 2012, we published the memorandum report, The Four Defense
Intelligence Agencies Have Had No Effective Procedures for Suspension and Debarment.
That project's objective was to determine the effectiveness of suspension and
debarment procedures in the four Defense intelligence agencies -- the Defense
Intelligence Agency (DIA), the National Geospatial-Intelligence Agency (NGA), the
National Reconnaissance Office (NRO), and the National Security Agency (NSA). We
based our study on 131 investigative case summaries (hereinafter referred to as "IG
investigations") provided to us by the Inspectors General (IGs) of the Defense
intelligence agencies from October 1, 2000, to September 30, 2010; we published those
case summaries in the Classified Annexes to the [DoD IG's} Semi-Annual Report to
Congress. In our study, we found that none of these Agencies had ever debarred a
contractor, consultant, or contractor employee. Also, we found that only one of these
agencies had ever suspended a contractor, consultant, or contractor employee.

During our research for that project, we found that procurement and general counsel
staff from the Defense intelligence agencies had assumed that Subject contractor
employees involved in misconduct would lose their security clearance and access. We
examined this assumption using the same 131 cases that we had used in the suspension
and debarment study. Also in our research we determined that absent suspension and
debarment there was no policy to preclude individuals involved in misconduct
investigated by Agency IGs from working on unclassified government contracts, even if
they had lost their security clearance and Sensitive Compartmented Information (SCI)
access. A detailed discussion of the background to this project is attached as Appendix
A.

Objectives
In response to our initial data call to the IGs of the Defense intelligence agencies, the IGs
identified 128 individuals as the Subjects of their 131 substantiated investigations.
Although these investigations were conducted by the Agency IGs between 2000 and
2010, we conducted our research to determine if they were still relevant to contractor
personnel security clearance processing in the Department. The extent to which they
impacted individual personnel security adjudicative decisions was within the scope of
authority of t he individual Agency Directors and Agency Clearance Adj udication
Facilities (CAF). We assessed: a) how, or if, substantiated investigations of misconduct
were reported to their Agency CAF and to the Department of Defense (DoD)
Consolidated Adjudication Facility (DO DCAF); b) if the referred investigations had been
adjudicated; and c) the r esults of those security adjudications. DODCAF is the successor
organization to the Defense Industrial Security Clearance Office (DISCO); the U.S. Army,
U. S. Navy, U.S. Air Force, Washington Headquarters Services, and Joint Staff CAFs, and
for the adjudicative functions of the Defense Office of Hearings and Appeals (DOHA) .

Scope and Methodology
A detailed discussion of our scope and methodology is attached as Appendix B.




                             Report No. DODIG-2 014-0601 1
 Finding A
 Lack of Effective Personnel Security Policy
 We found a lack of effective personnel security policy. This condition occurred because
 the Department's personnel security policy was largely outdated, or-- as in the case of
 policy for operation of the Joint Personnel Adjudication System (JPAS) --entirely absent.
 As a result, a lack of effective security policy procedures existed, with no overarching
 written policy governing how /when JPAS is to be used.

 Applicable Personnel Security Policy
 We conducted a detailed review of personnel security policy, including Executive
 Orders (EO); Intelligence Community (IC) policy issued by the Director of National
 Intelligence (DNI); Office of Personnel Management (OPM)-issued policy; and DoD-
 issued policy. Based on our review, we found:

     •   Many of the 131 Agency IG case summaries included misconduct, which
         warranted either: a) additional conditions, deviations, or waivers attached to a
         favorable security clearance/access adjudication; or b) revocation/denial of
         one's security clearancejaccess.

     •   Under the reciprocity policy of Intelligence Community Policy Guidance (ICPG)
         704.4, "Reciprocity of Personnel Security Clearance and Access Determinations," a
         favorable personnel security clearancejSCl access adjudicative determination --
         absent conditions, deviations, or waivers -- made by one CAF was binding on all
         other IC elements.

     •   Defense intelligence agencies were required to report unfavorable information
         regarding contractor employees to DISCO, and now to DODCAF.

 Outdated Personnel Security Policy Documents
  DoD Instruction (DoDI) 5025.01, "DoD Directives Program," September 26, 2012,
  established that "Prior to the 5-year anniversary of their publication date, all issuances
· must be reviewed to determine if they are necessary, current and consistent with DoD
  policy, existing law, and statutory authority. They will be either reissued, certified as
  current, or cancelled, as appropriate ...All issuances certified as current must be reissued
  or cancelled within 7 years of the original publication date."

 The DoD personnel security policy documents we reviewed were between eight and 28
 years old. None of them met the standards of DoD I 5025.01 for accuracy and currency.
 Among the many problems we noted were:

         •   Repeated references to the Defense Investigative Service (DIS), which
             was renamed the Defense Security Service (DSS) in 1997.

         •   The documents did not reflect the transfer in February 200 5 of the DoD
             personnel security background investigative mission from DSS to OPM.



                              Report No. DODIG-2014-0601 2
        •   Repeated references to the Directorate for Industrial Security Clearance
            Review (DISCR), which was succeeded by the Defense Office of Hearings
            and Appeals (DOHA), and which has now been succeeded, in part, by
            DODCAF.

        •   The documents did not reflect the creation of JPAS, the move of
            personnel security investigative and adjudicative records from the
            Defense Clearance and Investigative Index to JPAS, and the further
            renaming of the Index as the Defense Central Index of Investigations
            (DCII).

        •   The numerous organizational changes since these policy documents were
            published make the required reporting channels difficult to understand. Of
            note, Commanders and heads of activities are generally required to report
            adverse/questionable information concerning contractor employees who
            are cleared, or are being cleared, for access to classified information to
            DISCO/DODCAF.

Also of note, USD(I) staff told us that DoD personnel security policy had been under
detailed review, and in coordination since 2012.

There is no Overarching Written Policy Governing
JPAS
JPAS was designed to provide the Department with a common information resource for
granting and sharing personnel security eligibility determinations and recording
personnel access to sensitive and non-sensitive compartmented information. We did
not find any overarching policy documents -- such as a directive; regulation, or
instruction-- governing JPAS operation.

Responsibility
DoD! 5145.03, "Oversight of the DoD Personnel Security Program," January 2013,
charges the USD(I) with direction, administration, and oversight of the DoD personnel
security program. Further, the February 2010 Memorandum of Agreement covering the
transfer of operational control of JPAS and DCII from DSS to the Defense Manpower
Data Center (DMDC) stipulated that USD(I) "retained responsibility for creation and
interpretation of all policies governing" JPAS and DC II.

Conclusions
DoD personnel security policy is dated, unclear, or entirely absent. Since no system can
function in the absence of adequate direction; it is imperative that this situation be
resolved as soon as possible.




                            Report No. DODIG-2014-0601 3
Recommendations, Management Comments, and
Our Response:
A. 1. We recommend that USD(I) develop and issue an overarching policy
governing operation of the System of Record for Personnel Security Clearances.

USD(I) Comments
In our coordination draft, we recommend that USD(I) develop and issue an overarching
policy governing JPAS operation. USD(I) concurred with the recommendation, agreeing
that a consolidated, overarching policy was needed. USD(I) stated that Draft DoOM
52200.02, Volume 1, "DoD Personnel Security Program: Investigations for National
Security Positions and Duties," and DoOM 5200.02, Volume 2, "DoD Personnel Security
Program: Adjudications, Due Process, Continuous Evaluation and Security Education,"
will "provide overarching policy governing operations of JPAS and its successor system
(the Joint Verification System), to include requirements for recording issues of security
concern and adjudications that are based on exceptions due to presence of adverse
information. Since Volume 2 is still in the formal comment period, we have an
immediate opportunity to ensure that we incorporate the IG's recommendations and
address the need for JPAS functionality as discussed in the IG report."

Additional Comment by the Defense Human Resources Activity
(DHRA)
DHRA recommended that the recommendation be modified to require that USD(I)
develop and issue an overarching policy governing the "System of Record for Personnel
Security Clearances," stating that a transition from JPAS to the Defense Information
System for Security (DISS) is planned.

Our Response
The USD(I) comments are responsive, and the additional DHRA comment is an
appropriate clarification. Accordingly, we modified the recommendation.

A.2. We recommend that USD(I) finalize updates to-- or replacements for-- the
personnel security portions of the following Departmental policies:

   a. DoD 5200.2-R, "Personnel Security Program," February 23, 1996.

   b. DoD 5220.22 -R, "Industrial Security Regulation," December 1985.

   c. DoD 5220.22 -M-Sup 1, "National Industrial Security Program:
       Operating Manual Supplement," February 1995.

USD(I) Comments
USD(I) concurred with the recommendation, and provided the following timeline




                           Report No. DODIG-2 014-0601 4
regarding replacements for the above policy documents:

DoD 5220.2-R is being replaced by DoOM 5200.02, Vol. 1, and DoOM 5200.02, Vol. 2.

        Volume 1 has been in the Office of the General Counsel, Intelligence [OGC(I)],
        DoD, since July 29, 2013, for legal sufficiency review. Following OGC(I) review,
        USD(I) will expedite making any required changes before moving the policy to
        Office of the General Council (OGC), DoD, for approval. Thereafter, USD(I) is
        required to coordinate with the Federal Register Liaison Office (FRLO),
        Washington Headquarters Services (WHS), which coordinates with the Office of
        Management and Budget (OMB) to meet OMB's requirements for publishing the
        policy as a federal rule.

        Formal Coordination of Volume 2 closed on January 17, 2014. USD(I)'s goal is to
        complete adjudication of comments by March 7, 2014. Thereafter, the policy
        issuance process will proceed according to the steps that WHS established and
        according to the timelines that DoD! 5025.01 established. Once through the
        DoD policy issuance process, USD(I) is required to coordinate with FRLO to
        move the proposed policy through OMB's rule-making process.

DoD 5220.22-R will be replaced by DoD 5220.22M, Vol. 2, "National Industrial Security
Program: Industrial Security Procedures for Government Activities." DoD will wo rk
with WHS who coordinates with OMB to publish the policy through OMB's Federal
Register process. DoD is currently working with OMB to format the volume and to
complete information collection in accordance with OMB requirements.

DoD 5220.22-M-Sup 1 will be cancelled when the next conforming change to DoD
5220.22-M is approved. That policy is currently being processed through the formal
DoD policy-issuance process. USD(I)'s goal is to issue the conforming change by January
1, 2015.

USD(I) advised that despite the issuance of DoD! 5145.03, DoD OGC retained policy
responsibility for DoDD 5220.6, "Defense Industrial Personnel Security Clearance
Review Program," April4, 1999.

Our Response
The USD(I) comments are responsive .

Redirected Recommendation
As a res ult of USD(I)'s comments, w e are redi recting th e foll owing
recommendation to DoD OGC.




                           Report No . DODIG-2014-0601 5
A.3. We recommend that DoD OGC prepare an update to-- or replacement for-
DoDD 5220.6 to make it compliant with the requirements ofDoDI 5025.01 for
accuracy and currency.




                       Report No. DODIG-2014-0601 6
FindingB
Lack of Effective Recordkeeping
We found a lack of effective recordkeeping by the Agency security offices, as well as by
DIA, NGA, NRO, and NSA IGs. This occurred because the appropriate investigative and
personnel security databases-- JPAS, DCII, and the IC's SCATTERED CASTLES system --
were not being reliably populated with investigative and security information. As a
result, the failure to effectively document investigative Subjects in JPAS, SCATTERED
CASTLES, and/or DCII significantly hindered personnel security clearance and access
adjudications.

Background
The Subjects of the investigations that the Agency IGs conducted generally had the
highest levels of security clearance and access to classified material. The following table
summarizes our understanding of the authorized levels of security clearance/access
that the contractor employees (the Subjects) held at the time the IGs conducted their
investigations:
 -

                  Contractor Employee (Subjects) Security Clearance/ Access

     Agency     Number of       Number of      Number       Number of      Number      Number
               Subjects with   Subjects with      of         Subjects         of         of
               either No or    Confidential    Subjects      with Top      Subjects    Subjects
              Unknown Level                      with         Secret       with Top     Total
               of Clearance/                    Secret      Collateral    Secret/SCI
                  Access                                       Only

     DIA            7                0             1            0             13         21
     NGA            2                0             0            0              1         3
     NRO            6                0             3            0             67         76
     NSA           0                 0             0            0              28         28
 Total             15                0             4            0             109        128



Eighty-eight percent (113 of 128) of the Subjects held a documented security clearance,
and 85 percent (109 of 128) had access to Top Secret/SCI information. Based on the
security classification standards articulated in EO 13526, Classified National Security
Information, December 29, 2009, Top Secret information -- if compromised -- could
reasonably be expected to cause exceptionally grave damage to the national security.

Gaps in Joint Personnel Adjudication System (JPAS)
and SCATTERED CASTLES
JPAS was designed to provide the Department with a common information resource for
granting and sharing personnel security eligibility determinations and recording
personnel access to sensitive and non-sensitive compartmented information.
SCATTERED CASTLES serves essentially the same purpose for the IC.




                               Report No. DODIG-2014-0601 7
In our review, we found that only 73 percent (94 of 128) of the Subjects were listed in
JPAS, and only 53 percent (68 of 128) were listed in SCATTERED CASTLES.

Of the Subjects listed in JPAS, only 35 percent (33 out of 94) had relevant incident
reports posted in their JPAS file by their corporate security officers or the Office of
Security of the Agency whose IG had conducted the investigation.

Conditions/Deviations/Waivers Not Adequately
Documented in SCATIERED CASTLES
ICPG 704.4 raises the issue of conditions, deviations, and waivers in the security
clearance process. While guidelines may support security clearance/access revocation
or denial, operational considerations at times might make this difficult. OPM describes
these conditions as "access eligibility granted or continued with the proviso that one or
more additional measures will be required, such as additional security monitoring,
restrictions on access, and restrictions on an individual's handling of classified
information." For example, for an individual who was investigated for time and
attendance fraud, a "condition" might include a requirement that contractor and
government management exercise significantly heightened oversight of the individual's
time, attendance, and financial claims. The fact that clearance/access was granted with
conditions, deviations, or waivers should be documented in the "Exception Information"
block of the Subject's SCATTERED CASTLES file, indicating the type (condition,
deviation, or waiver), and date of the exception. Such a properly documented exception
would afford a second agency the opportunity to deny reciprocity under ICPG 704.4.

In our review, at least 45 percent of the Subjects (57 of 128) continued in status or had
clearance/access granted or restored after the closure dates of their IG investigations.
Although substantiated Agency IG investigations existed regarding these 57 Subjects,
only 10 Subjects had entries in the "Exception Information" block of their SCATTERED
CASTLES files by any CAFs:
             -   -   --   ---------------------------~---




   Subjects' Files in SCATTERED CASTLES Where the "Exception Information" Block Indicates
            Clearance/Access was Granted with a Condition, Deviation, or Waiver
 Investigating Agency       Number of Subjects with annotations indicating Condition
                            "C", Deviation "D," or Exception "E"
                            1 "C" entered by NRO CAF
 DIAIG                      2 "D" e nte red by DIA CAF
                            1 "D" entered by both DIA and CIA CAFs
 NGAIG                      0
                            1 "D" e ntere d by DIA CAF
 NRO IG                     1"0" e ntered by NRO CAF
                            3 "C" a nd "D" entered by NRO CAF
 NSAI G                     1 "D" e ntered by CIA CAF
 Tota l                     10


The misconduct documented in the IGs' investigative case summaries appear ed to
warrant referral to their Agencies' CAF fo r adjudication, and referrals did occur in all 57
cases. We cannot determine from the data provided to us whether the CAFs either: a)



                              Report No. DODIG-2014-0601 8
made the judgment that the misconduct was not of sufficient significance to warrant
granting clearance/access with conditions, deviations, or waivers; or b) if
clearance/access was granted with conditions, deviations, or waivers, but these
exceptions were not documented by the CAFs in the Subjects' SCATTERED CASTLES
files.

Without a documented condition, deviation, or waiver, a Subject would be eligible
under the reciprocity policy of ICPG 704.4 for equivalent or lower access at all other IC
entities.

Gaps in the Defense Central Index of Investigations
(DCII)
DCII was created in February 1966 -- under a December 3, 1965, memorandum signed
by Deputy Secretary of Defense Cyrus Vance -- to constitute a computerized central
index of investigations conducted by DoD investigative activities. Despite extensive
efforts, we have been unable to recover a copy of Mr. Vance's memorandum to
determine his intent in directing the establishment of DCII. The initial executive agent
for DCII was the Office of the Assistant Chief of Staff for Intelligence, U.S. Army.
Executive agency was subsequently transferred to DIS/DSS in 1972. And, in mid-2010
the Deputy Secretary of Defense transferred operational responsibility for DCII to the
DMDC. From the chain of executive agency for DCII -- and the historic inclusion of
personnel security background investigations, counterintelligence polygraph
examinations, counterintelligence investigations, security investigations, and personnel
security clearance data in DCII, as well as criminal investigative data -- it is reasonable
to conclude that the database was initially broadly defined as an investigative index.

A DCII file consists of a Subject's name; social security number; date, state, and country
of birth; investigative file number(s), location and year the file(s) was created; context
of the Subject's relationship to the investigation (i.e., Subject, witness, cross reference,
etc.), retention period of the investigative file(s); and date the investigation(s) was
closed. The file contains no investigative information and simply functions as a finding
guide for where DoD investigative files are located.

The majority of the 131 Agency IG investigations we reviewed involved possible
violations of Federal criminal statutes. For example, time and attendance fraud -- which
comprised 68 percent of our case sample (89 of 131 cases) -- generally involves some
combination of violations of the following Federal criminal statutes:

   •   18 U.S. Code (USC), 287, False, Fictitious, or Fraudulent Claims

   •   18 USC 1001, False Official Statement

   •   18 USC 1341, Mail Fraud

   •   18 USC 1343, Fraud by Wire

Moreover, in order to significantly profit from time and attendance fraud, a Subject
must have submitted false claims/statements during repeated payroll cycles. The time
and attendance fraud investigations involved an average loss per investigation of
$41,788.96.



                             Report No. DODIG-2014-0601 9
    A possible violation of the criminal statutes is indicated when an IG refers an
    investigation to the Criminal' and Civil Divisions of the Department of Justice (DoJ), or to
    local prosecutors.      However, while investigations were referred for possible
    prosecution, they were not always titled and indexed in DCII (as shown in the following
    chart):

                                         Overall Agency Totals
Agency       Cases in   Duplicate    Exclusively   Individual    Cases          Individual   Individual
             Our 131    Case         Corporate     Subjects      Referred       Subjects     Subjects
             Case       Summaries    Subjects      Identified    To DoJ         Titled and   Not Titled
             Sample                  (i.e., no                   or Local       Indexed in   and
                                     identified                  Prosecutors    DC II        Indexed in
                                     individual                  (based upon                 DC II
                                     Subjects)                   the 131 Case
                                                                 summaries)
DIA             20          0             4             21            3              8           13
NGA              3          0             1              3            1              0            3
NRO             80          1              5            76            72            23           53
NSA             28          1              2            28             9            12           16
Total          131          2             12           128            85            43           85


   As documented in the above chart, only 34 percent of the Subjects (43 of 128) were
   titled and indexed in DC!!. Only the Defense Criminal Investigative Service (DCIS), the
   law enforcement investigative arm of DoD IG -- which had worked jointly with Agency
   !Gs on some cases-- and DIA IG titled and indexed Subjects in DC! I.

   We noted some anomalies during our research. While the Subjects in nine NSA IG cases
   were presented to Federal prosecutors for possible prosecution, five of those Subjects
   were not titled or indexed in DC!!. Nor did corporate or Agency security officials file
   relevant incident reports in JPAS. Also, three of those five Subjects continued to hold
   SCI access with NSA, even after the NSA IG investigations concluded.

   Additionally, while the Subjects in 72 NRO cases were presented to Federal prosecutors
   for possible prosecution, 20 were not titled or indexed in DCII, and no relevant incident
   reports were filed in JPAS regarding those Subjects.

   We also received some anecdotal data during our revi ew. Staff members of the NGA,
   NRO, and NSA !Gs told us that:

         •    NGA IG had only recently obtained "read only" access to DCII, and was
              attempting to obtain "fu ll user" access to DC!! so that it could t itle and index
              Subjects in DC!!. In response to our draft report, NGA advised that NGA IG had
              obtai ned fu ll user access to DCII, effective August 26, 2013 .

         •    NRO IG had not titled and indexed Subj ects fr om its crim inal investigations in
              DCII for "some years," and staff did not know if their IG still had a staff member
              with decisional authority to title and index Subjects in DC! I. In response to our




                                    Report No. DODIG-2014-0601 10
        draft report, NRO advised that NRO IG never had access to DCII and its IG
        investigators may have misspoken. NRO IG had relied on the NRO Office of
        Security and Counterintelligence to title and index Subjects of IG investigations
        "in the appropriate system(s) of record."

    •   NSA IG worked with DCIS on "all criminal investigations." Therefore, as a
        criminal investigative entity, DCIS was responsible for titling and indexing the
        Subject(s) in DC!!. No one was designated at NSA to title and index individuals
        in DC!!. In this context, we noted that only 43 percent of NSA IG's Subjects (12
        of 28) were titled and indexed in DC!!.

Results of Gaps in DCII Data
Personnel security investigations begin with a National Agency Check (NAC), which is
defined in 32 Code of Federal Regulations (CFR) 154, Appendix A, as a scan of at least
three databases: DC!!; Federal Bureau of Investigation (FBI) headquarters investigative
files; and FBI identification files.

A favorable NAC, local agency check, credit check, and verification of a Subject's birth
(NACLC) are the basic criteria for granting eligibility for access to Confidential and
Secret information. The Single Scope Background Investigation (SSBI) expands on the
NACLC by verifying employment, education, and residence, as well as interviews of the
Subject and character reference s. Paragraph 10.a., ICPG 704.1, "Personnel Security
Investigative Standards and Procedures Governing Eligibility for Access to [SCI] and
Other Controlled Access Program Information," requires that, at a minimum, six data
bases be queried as part of a NAC for SCI access. DCII is one of these databases.

OPM maintains the Security and Suitability Investigation Index (SII) and the Central
Verification System (CVS) . Those systems allow personnel security and suitability
communities to validate the need for new investigations and share information on prior
background investigations, adjudications, security clearances, and Homeland Security
Presidential Directive (HSPD) 12 credential determinations. If criminal investigative
files are identified through a DCII check, the file is then copied into the Subject's
backgrou nd investigation and the investigation indexed in SII.

Therefore, fa ili ng to title and index investigative Subjects in DCII significantly hinders
the NAC and SSBI processes. DMDC staff told us that no system impediments currently
exist for providing DCII system access to additional users, which means the Defense
intelligence agencies !Gs should be able to access DC!I.

This situatio n caused us to furthe r examine the historical develo pment of DC!!. Other
than references to former Deputy Secretary of Defense Vance's memorandum, we have
been unab le to find an over-arching DoD policy document -- directive, regulation,
instruction, or manual -- governing the operation of DC!!. This has resu lted in a degree
of confusion regarding which investigatio ns should be titled an d indexed in DC!I.




                            Report No. DODIG-2014-0601 11
An examination of copies of the CFR published between 1978 and 2009 provides the
following information regarding DCII:

        "The DCII, which contains reference to investigative records created and held by
        the DoD components. The records indexed are primarily those prepared by the
        investigative agencies of the Military departments and DIS, covering criminal,
        fraud, counterintelligence, and personnel security information." [32 CFR
        298.4.(a), July 1, 1978; and 32 CFR 298.3.(a), July 1, 2009]

        "DIS maintains the [DCII], which contains reference to investigative records
        created and held by DoD components. The records indexed are primarily those
        prepared by the investigative agencies of the DoD, covering criminal, fraud,
        counterintelligence, and personnel security information." [32 CFR 298.3.(a),
        July 1, 1992]

DOD! 5505.07, "Titling and Indexing Subjects of Criminal Investigations in the [DoD],"
January 27, 2012, discusses only the titling and indexing of the Subjects of criminal
investigations conducted by the Defense Criminal Investigative Organizations (DCIO).

DOD! 5505.16, "Criminal Investigations by Personnel Who Are Not Assigned to a
[DCIO]," May 7, 2012, applies to all DoD Components outside the DCIOs. It establishes
the policy that DoD Components who employ personnel conducting criminal
investigations will ensure that Subjects of criminal investigations are titled and indexed
in DCII. It requires that such DoD Components will develop an automated records
management and information system which is compatible with DC II. If the component
does not have full DCII user access they will execute an agreement with a DCIO or other
DoD law enforcement organization to meet DCII reporting requirements. If an
investigation is transferred to a DCIO, then that DCIO becomes responsible for titling
and indexing the Subject(s) of the investigation in DCII.

What is much less clear are the policy requirements for titling and indexing the Subjects
of complaint type personnel security, counterintelligence, security violation,
unauthorized · disclosure, administrative, senior official, and other investigations
conducted by DoD Components.

In addition to policy issues, inadequate DCII system capacity prio r to mid-2 00 6 limit ed
the ability of th e Agency IGs and othe r organizations t o title and index Subjects in the
DCII du ring much of DI S/DSS's administration of th e DCII. For example, DIA IG began
r equesting full user a ccess to the DCII in the early 1990s, but did not r eceive access until
the summer of 2006 when DSS expanded DCII system capacity, relieving the earlier
system capacity issues. When t he DIA Office of Security (SEC) commenced conducting
cou nteri ntelligence p olygraph examinatio ns in the 1990s, it was several years before
DSS could provide SEC with system capability to title and index the polygraph
examinatio ns in DCII, despite DoD polygraph policy whi ch required t hat the
examinatio ns be titled and indexed.




                             Report No. DODIG- 2014-0601 12
Complete DCII Record keeping is Critical to the
Projected Shift in Reinvestigations
During a March 5, 2013, Intelligence and National Security Policy Reform Symposium,
the Director, Office of Security, NRO, said that due to constrained funding, the NSA and
NRO Offices of Security had suspended the conduct of periodic reinvestigations for
contractor employees, and were instead concentrating on entry-level background
investigations. In response to our draft report, NSA stated that it had, in fact, not
suspended contractor reinvestigations. DSS -- which funded most industry background
investigations and periodic reinvestigations -announced in June 2013 that due to fiscal
constraints it was suspending all industry periodic reinvestigations for the remainder of
fiscal year 2013.

Additionally, substantial momentum exists toward Continuous Monitoring, Evaluation,
or Observation. This concept began when the Defense Personnel Security Research
Center (PERSEREC) started examining aperiodic reinvestigations -- in lieu of the
current reinvestigations, which are supposed to occur every five years. As a result of
this research, PERSEREC developed the Automated Continuing Evaluation System
(ACES). PERSEREC described this system as follows:

        " ... These evaluations involved automated checks of security-relevant databases,
        such as criminal history, credit, foreign travel, and large-currency transactions.
        This approach would reduce security risk by detecting more cases involving
        issues of serious security concern and by detecting those cases earlier.
        Furthermore, it would substantially reduce demands on investigative resources.
        This would be accomplished by applying more investigative resources to the
        relatively small number of cases where they are needed the most and fewer
        resources to cases where they are needed the least. Using this approach, full-
        scale investigations would be triggered based on factors such as the person's
        level of access, the time elapsed since the last investigation, whether issues were
        detected in the last investigation, and the seriousness and number of new issues
        detected by automated checks of security-relevant databases ..."

The current system r equires a minimum five -year gap between investigations, even
thou gh personnel security specialists have long recognized that s ignificant security
events could affect a Subject's life between investigations. Based upon preli minary
studies and fie ld testing, the testing organizations believed ACES to be effective and
substantially less expensive than the current personnel security reinvestigation system.

Movement away from traditional background investigatio ns -- particularly t he five -year
periodic reinvestigation -- requires accuracy in the data sear ches that w ill replace those
investigations. DCII is among the databases contained in PERSEREC's ACES set of
databases.




                            Report No. DODIG-2014-0601 13
If ACES or another continuous monitoring program is to replace periodic reviews, DoD
entities must ensure the Subjects of all DoD investigations are titled and indexed in
DC!!. This would enable those investigations to be recovered by the CAFs holding
personnel security adjudicative responsibility for civilian government employees,
military personnel, and contractor employees.

In light of our earlier study on suspension and debarment, we note that ACES does not
include the Excluded Parties List System (EPLS) or the follow-on System for Award
Management (SAM) in the set of databases being accessed. The General Services
Administration (GSA) administers EPLS/SAM, which contains the identities of
individual and corporate contractor employees who have been suspended or debarred
from government contracting because of misconduct or poor performance. Suspension
and debarment and personnel security adjudication are closely linked, because both
deal with suitability: suspension and debarment relates to the government conducting
business only with responsible contractors, while personnel security adjudication
relates to suitability for access to classified information.

Lack of Reporting to DISCO/DODCAF
DoD 5220.22-R requires that the head of a user activity shall report to DISCO any
adverse or questionable information that comes to that person's attention concerning a
contractor employee who has been cleared for access to classified information, which
may indicate that such access is not clearly consistent with the U.S. national interest.

Historically, sponsoring organizations would submit requests for contractor employees'
security clearance determinations to DISCO . DISCO would then task the investigative
entities, receive the results of the investigations, and adjudicate for collateral security
clearances. Cases that contained significant derogatory information were referred to
DOHA for further adjudication and, if required, due process action. When the process
was favorably completed, DISCO granted the clearances. If the contractor employee
subsequently required SCI access, the case was adjudicated a second ti me by one of the
Defense intelligence agency or Military Service CAFs. This process was admittedly time-
consuming.

DNI subsequently delegated autho rity for the enti re personnel security process to t he
fou r Defe nse intelligence agencies fo r personnel falling within t heir security cognizance.
The four agencies now can conduct background investigations and personnel security
adjudications fo r government employees and contractor employees, for both collateral
and SCI access.

We provided our list of 128 investigative Subjects to DODCAF and fo llowed up by asking
DODCAF to review its files to determine if its predecessor CAFs had received copies of
the relevant investigative reports that the Agency !Gs prepared. DODCAF replied that it
could only positively determine whether or not it had received an IG report on 20




                             Report No. DODIG-2014- 0601 14
percent of the Subjects (26 of 128); and for those 26 Subjects, it had only received five
reports-- all of them on NRO IG Subjects.

Therefore, the four Defense intelligence agencies have not complied with the DoD
5220.22-R requirement to report to DISCO adverse/questionable information
concerning a contractor employee with access to classified information.

Continued Focus on Existing Databases
The Intelligence Reform and Terrorism Prevention Act of 2004 (IRTPA) required
establishing a single, integrated personnel security database no later than 12 months
after the law was enacted.

The Government Accountability Office (GAO) said in a report entitled, Personnel Security
Clearances: Progress Has Been Made to Improve Timeliness but Continued Oversight Is
Needed to Sustain Momentum (GA0-11-65, November 2010), that the executive branch
agencies have instead opted to focus on leveraging existing systems rather than
establishing a new database, citing concerns related to privacy, security, and data
ownership. Thus, it is increasingly important for existing databases to contain current
and accurate personnel security data.

Destruction of Old Personnel Security Records
National Archives and Records Administration (NARA) General Records Schedule (GRS)
18: Security and Protective Services Records, Item 22, provides for the following:

       "22. Personnel Security Clearance Files.

       "Personnel security clearance case files created under Office of Personnel
       Management procedures and regulations and related indexes maintained by the
       personnel security office of the employing agency.

       "a. Case files documenting the processing of investigations on Federal
       employees or applicants for Federal employment, whether or not a security
       clearance is granted, and other persons, such as those performing work for a
       Federal agency under contract, who require an approval before having access to
       Government facilities or to sensitive data. These files include questionnaires,
       summaries of reports prepared by the investigating agency, and other records
       reflecting the processing of the investigation and the status of the clearance,
       exclusive of copies of investigative reports furnished by the investigating
       agency.

       "Destroy upon notification of death or not later than 5 years after separation or
       transfer of employee or not later than 5 years after contract relationship
       expires, whichever is applicable (Nc1 -GRS-80-1 item 23a)

       "c. Index to the Personnel Security Cases Files.

       "Destroy with related case file. (NC1-GRS-80-1 item 23c)"




                           Report No. DODIG-2014-0601 15
Throughout our review, we tried to determine: a) if a CAF had received a copy of one of
the Agency IG's reports of investigation; b) if the information contained in the
investigation had been adjudicated; and c) the results of the adjudication. However, our
efforts were stymied because adjudicative files and indices had been destroyed in
accordance with NARA GRS 18. When the Agency IG's investigative Subjects are not
titled and indexed in DCII and personnel security records are also destroyed, it
(inaccurately) appears as if no investigation was ever conducted. However, NARA is not
within our oversight purview.

Conclusions
If the personnel security system is to function properly, it is imperative that the
appropriate investigative and security databases be populated with accurate and
complete information by every entity - investigative and security - which has had an
equity in the investigative/security Subject. It is clear from our evaluation that this has
not been occurring consistently.

Recommendations, Management Comments, and
Our Response
B.1.a. We recommend that USD(I) prepare an overarching policy governing
the operation ofDCII, including identification ofthe categories of
investigations to be titled and indexed, and the retention criteria for
investigations so titled and indexed.

USD(I) Comments
USD(I) concurred with the recommendation. It will convene a working group to
develop, as appropriate, overarching policy governing the operation of DCII by
September 30, 2014.

Our Response
The USD(I) comment is responsive. We request that USD(I) provide us with a copy of
this policy by October 15, 2014.
B.1.b. We recommend that USD(I) direct the Defense intelligence agencies to
review the procedures that their Offices of Security use to ensure that JPAS
and SCATTERED CASTLES are being properly populated.

USD(I) Comments

USD (I) concurred with the recommendation, and will issue a memorandum directing
the recommended review by April15, 2014.




                           Report No. DODIG-2014-0601 16
Our Response
The USD(I) comment is responsive. We request that USD(I) provide us with a copy of
the memorandum by May 1, 2014.
B.l.c. We recommend that USD(I) direct the Defense intelligence agencies to
ensure that the Subjects of Agency IG criminal investigations are titled and
indexed in DCII in accordance with DoDI 5505.16.

USD(I) Comments

USD(I) concurred with the recommendation, stating that it would work with DoD IG "to
determine the correct authorities for issuing such a requirement."

Our Response
The USD(I) comment is responsive. However, we believe that for the present time, DoDI
5505.16 provides adequate authority to support this recommendation. It may be
appropriate in the future to meld the provisions of DoDI 5505.16 and DoDI 5505.07 into
the overarching DCII policy that was discussed in Recommendation B.1.a.
B.l.d. We recommend that USD(I) conduct one of the following actions to
ensure Subjects of past investigations are titled and indexed in DCII:
    •   Initiate action with OPM to require that OPM investigators conducting
        background investigations on current and former civilian employees,
        military assignees, and contract employees of the Defense intelligence
        agencies conduct name checks with the IGs ofthose agencies.
    •   Or, direct that the Directors of the Agencies ensure that the Subjects of
        past Agency IG criminal investigations are titled and indexed in DCII.

USD(I) Comments
USD(I) concurred with the recommendation, and will "explore both options by June 30,
2014, and identify the best way forward."

Our Response

The USD(I) comment is responsive.        We request that USD(I) advise us of its
determination by July 15, 201 4.
B. 2.a. We recommend that the Directors ofDIA, NGA, NRO, and NSA, in the
absence of an overarching DCII policy, evaluate titling and indexing in the DCII
the Subjects of all non-criminal investigations conducted by all Agency
investigative elements.

DIA Comments
DIA concurred with the recommendation, stating that DIA offices currently entered data



                          Report No. DODIG-2014-060J 17
into the DCII.


NGA Comments
NGA concurred with the recommendation. NGA IG obtained full user access to DCII
effective August 26, 2013, and will evaluate titling and indexing the Subjects of its non-
criminal investigations in DCII. The NGA Office of Security currently had read-only
access to DCII, but will request full user access no later than April 30, 2014, so that it
can title and index its personnel security investigations and polygraph examinations.

NRO Comments
NRO non-concurred with the recommendation. NRO stated:
        "The NRO has considered this recommendation and interprets 'non-criminal
        investigations' to pertain to personnel security investigations. Individuals
        determined eligible for and briefed into [SCI] access with a Condition, Deviation,
        or Waiver are reflected accordingly in Scattered Castles. It is our understanding
        and interpretation that the [DCII] is no longer used for this purpose, as the
        report indicates on page 3, second bullet, since personnel security investigative
        and adjudicative records were removed from the DCII."

NSA Comments

NSA non-concurred with the recommendation. NSA stated:

        "We disagree with applying Recommendation 8(2)(a) to the extent that it would
        apply to security investigations. The DoD-designed repository for investigations
        of security significance is []PAS]. NSA already submits all such cases on DoD
        contractors to JPAS and to SCATTERED CASTLES (as the IC repository)."

 Our Response
The DIA and NGA comments are responsive to our recommendation.

The NRO and NSA comments are not responsive. Their responses illustrate the
confusion - in the absence of an overarching DCII policy -- regarding which
investigations by which investigative entities are to be titled and indexed in DCII. It is
our understanding that Deputy Secretary Vance intended that all investigations
conducted by all DoD investigative entities would be titled and indexed in DCII.
Consequently "non-criminal investigations" might reasonably include administrative
investigations that. the Agency !Gs conducted, as well as complaint type personnel
security, security violation, unauthorized disclosure, and counterintelligence
investigations that the Agency counterintelligence and security elements conducted.
Indices on personnel security background investigations and adjudications were moved
from DCII to JPAS with the creation of JPAS. Complaint type personnel security



                            Report No. DODIG-2014-0601 18
investigations seemingly appear in JPAS only to the extent that information from them
is used to populate the incident report fields in JPAS. Because incident report fields in
JPAS were not necessarily populated with relevant information from the Agency IG
investigations that we examined in this assessment, we are concerned that the same
situation is occurring with regard to complaint type personnel security, security
violation, unauthorized disclosure, and counterintelligence investigations. Titling and
indexing an investigation in DCII provides clear data which may be used by another
federal entity to obtain a copy of the investigation from the originator. We request that
the Directors, NRO and NSA respectively, reconsider our recommendation to ensure
Subjects of investigations are titled and indexed in DCII, and provide additional
comments in response to the final report.
B. 2.b. We recommend that the Directors ofDIA, NGA, NRO, and NSA direct
their Offices of Security to develop formal procedures to ensure that reports
of investigation into misconduct by contractor personnel are reported to
DODCAF.

DIA Comments
DIA concurred with the recommendation, stating that it already had a process in place
in which the DIA Office of Security and DIA IG notified DODCAF of derogatory
information regarding contractor personnel.

NGA Comments
NGA concurred with the recommendation. The NGA Office of Security had adjudicative
authority over its contractors and investigated and adjudicated all reports of
misconduct by contractor personnel. The Office of Security will enter reports of
misconduct by contractor personnel into JPAS and develop formal procedures to ensure
that repo rts of investigation are forwarded to DODCAF no later than June 30, 2014.

NRO Comments
NRO non-concurred with implementing this recommendation at NRO. NRO stated that:
       "A process is already in place that ensures NRO Office of Security and
       Counterintellige nce (OS&Cl) reports denials and revocati ons on co ntractors
       with [DoD] equities directly to the [DODCAF]. All other cases involving
       derogatory information developed on contractors during personnel security
       processing are reported via Scattered Castles Daily Exception Rep orts, which
       are available to DOD. In addition, the NRO OIG reports cases involving
       misconduct of contractor personnel to OS&C I, and this information is reported
       via Scattered Castles Daily exception Reports."

NSA Comme nts

NSA concurred with the recommendation, stating that prio r to DODCAF's establishment
investigations were repo rted t o DISCO. Since then, any cas es involving contracto r
misconduct with a national security clearance eligibility nexus have been reported to



                           Report No. DODIG-2014-0601 19
the DODCAF in accordance with internal operating procedures. NSA said it will
continue to enforce its internal procedures that require the reporting of any derogatory
information regarding DoD contractors to DODCAF.

Our Response
The DIA, NGA, and NSA responses are responsive to the recommendation. The NRO
comments are partially responsive and require no further action.

The NRO response acknowledging that contractor information was being provided to
DODCAF highlighted an issue with the DoD personnel security system. Even though
JPAS is the Department's personnel security database, NRO uses SCATTERED CASTLES.
Paragraph 5.a., DoDD 5105.23, "National Reconnaissance Office," June 28, 2011,
designates NRO as a Defense Agency, yet it does not report to, or accept personnel
security clearances from, JPAS. This situation further supports Recommendation A.1.
regarding the need for an overarching JPAS policy. An overarching policy will either
direct NRO to report to JPAS or give it a clear exception to policy.
B. 2.c. We recommend that the Directors ofDIA, NGA, NRO, and NSA ensure
that controls are in place to ensure that favorable personnel security
adjudicative determinations made with conditions, deviations, or waivers are
documented in the "Exception Information" block of the Subject's SCATTERED
CASTLES file.

DIA Comments
DIA did not respond to the recommendation.

NGA Comments
NGA concurred with the recommendation, stating that all favorabl e personnel security
determinations made with conditions, deviations, or waivers were being documented in
the "Exception Information" block of the Subject's SCATTERED CASTLES fil e.

NRO Comments
NRO did not respond t o t he recommendation.

NSA Comments

NSA concurred with the recommendation, stating that NSA had provided information to
SCATTERED CASTLES since approximately 2002. In accordance with lCD 704,
"Personnel Security Standards and Procedures Governing Eligibility for Access to [SCI]
and other Controlled Access Program Information," pro cedu res were already in place to
ensure that this information was entered into SCATTERED CASTLES.




                           Report No. DODIG-2014-0601 20
Our Response

The NGA and NSA comments are responsive to the recommendation. However, as we
stated earlier in this report, we could not determine from the data provided to us
whether the CAFs either: a) judged that the substantiated misconduct that the Agency
IGs identified was not of sufficient significance to warrant granting clearance/access
with conditions, deviations, or waivers; orb) granted clearance/access with conditions,
deviations, or waivers, but these exceptions were not documented by the CAFs in the
Subjects' SCATTERED CASTLES files. The NGA and NSA responses imply that the
misconduct was not regarded as sufficient for clearance/access to be granted with
conditions, deviations, or waivers. That operational decision, unless documented as a
condition, deviation, or waiver, then becomes binding through the reciprocity process
on all other elements of the IC.

Through an inadvertent editing error, we left this recommendation off the
Recommendations Table in our coordination draft, which may account for the lack of
response from DIA and NRO. We request that the Directors of DIA and NRO respond to
the recommendation.

B.3. We recommend that the Inspectors General of DIA, NGA, NRO, and NSA work
with the Offices of Security of those Agencies to ensure that IG reports of
investigation into misconduct by contractor personnel are reported to DODCAF.

DIA Comments
DIA concurred with the recommendation, stating that DIA already had a process in
which DIA IG notified DODCAF.

NGA Comments
NGA concurred with the recommendation, stating that the NGA IG provided reports of
investigation into misconduct by NGA civilians and contractors to the Office of Security
fo r information and re-adjudication. The Office of Security will work with NGA IG to
ensure reports of investigation are forwarded to DODCAF, with the process to be in
place no later than June 30, 2014.

NRO Comments
NRO concurred with the recommendatio n, stating that NRO IG had:
       " .. .a transmittal memorandum template that accompanies all resp onses sent to
       the NRO Office of Security and Counterintelligence (OS&CI). This template
       contains language requesting OS&CI update all appropriate databases upon
       r eceipt of a report. The OIG an d OS&CI have regularly scheduled meetings to
       address various issues and the OIG will use this forum to continue working
       closely with OS&CI and ensure that all OI G investigati ons are correctly
       reported."




                           Report No. DODIG-2014-0601 21
NSA Comments
NSA disagreed with the recommendation as written, stating that:

        "As written the proposed Recommendation language could impair the
        independence of the NSA IG. NSA suggests modifying Recommendation B(3) to
        clearly state the separate roles for those two organizations, and changing the
        report to delete the potentially ambiguous 'work with' language. Accordingly,
        we suggest that the Recommendation might state something such as:

               "'We recommend that the Inspector General of NSA continue to provide
               IG reports of investigation into substantial misconduct by contractor
               personnel (or summaries of these reports) to the NSA Office of Security
               to enable the NSA Office of Security to report to DODCAF, as required."'

        "However, effective immediately all NSA OIG reports of contractor misconduct
        received by the ADS&CI will now be disseminated to DODCAF. The ADS&CI is
        also implementing a protocol to ensure the OIG is notified when such reports
        are forwarded."

Our Response
The DIA, NGA, and NRO comments are responsive to the recommendation. NSA's
interpretation achieves the objective of the recommendation and requires no further
action.

B.4. We recommend that the Director, Defense Human Resources Activity, work
with GSA to add EPLS/SAM to the set of databases being accessed by ACES.

Defense Human Resources Activity (DHRA) Comments
DHRA non-concurred with the recommendation, stating that it was "premature since
analysis of this data is required to include value of data source in identifying issues
impacting federal investigative standards, and determining if the use of that data source
meets legal, privacy, and Paperwork Reduction Act requirements. Incorporating
[EPLS/SAM] into ACES would also requi re business analysis, software development,
interface development, testi ng and additional funding/ resources to accomplish that
w ork."

Our Response
DHRA's comments are not responsive to the recommendation. We reiterate that
contractors and contractor employees are listed in EPLS/ SAM because they have been
suspended or debarred for incompetence or misconduct on federal contracts.
Misconduct on a federal contract should have a direct bearing on eligibility fo r
personnel security clearance/ access. Any future continuous monitoring system should
incorporate data from EPLS/ SAM. We request that the Director, DHRA, reconsider our
reco mmendatio n to add EPLS / SAM to the set of databases being accessed by ACES, an d




                           Report No. DODIG-2014-0601 22
comment in response to the final report. We also request that the Director, DHRA,
provide this office with an action plan with milestones to achieve this objective.




                        Report No. DODIG-2014-0601 23
Finding C
Avoidance of Personnel Security Adjudication and
Due Process Issues
Agency security offices were avoiding the adjudication of Agency IG investigations after
the discovery of employee misconduct and consequently avoiding the initiation of due
process.

Background
EOs 10865, "Safeguarding Classified Information within Industry," and 12968, "Access
to Classified Information," require that personnel, including contractor employees ,
whose security clearance was denied or revoked be given due process. EO 12968
further requires that personnel security actions shall cease upon termination of the
applicant's need for access to classified information. Due process in contractor
personnel security cases requires that an employee: a) be advised in writing of the
government's intent to revoke or deny security clearance/access; b) be provided access
to documentation supporting that conclusion; c) be afforded a reasonable opportunity
to respond to the conclusion in writing, including representation by counsel; d) be
afforded an opportunity to appear personally before an adjudicative authority; e) be
advised in writing of the government's decision; and f) be afforded an opportunity to
appeal an unfavorable decision to a high-level panel. DoDD 5220.6 carries out the
provisions of EO 12968 by stating: "Actions pursuant to this Directive [that is personnel
security actions] shall cease upon termination of the applicant's need for access to
classified information except in those cases in which:

    •   "A hearing has commenced.
    •   "A clearance decision has been issued; or
    •   "The applicant's security clearance was suspended and the applicant provided a
        written request that the case continue."

Failure to Implement Due Process Procedures
In many of the IG investigations we reviewed, we found failures to pursue personnel
security clearance and due process procedures. As soon as employee misconduct was
discovered, the contracting company either fi red the employee, or the employee
"resigned." Once this occurre d, the employee no longer had a need fo r access to
classified information and no further personnel security action was taken. This meant
t he case was not adjudicated fo r denial or revocation of security clearance/ access, nor
was it reported to JPAS except as a "loss of jurisdiction." In JPAS it appeared that the
contractor employee was still eligible for a security clearance.

DIA Office of Security (SEC) staff described a process they used, which was a creative
variation on this theme. Due to limited resources to conduct forma l adjudications
which would result in due process actions, when SEC received a DIA IG investigation
appearing to warrant adverse action regardi ng contracto r employees' security
clearance/access, SEC terminated their phy sical access to DIA facilities by confiscating




                           Report No. DODIG-2014-0601 24
security badges and having DIA police escort them from the facility. Because most
contractor employees were hired to work on a specific project at a specific location,
terminating physical access generally led the contracting company to fire its employee.

SEC then posted an entry ("Z" Code) in JPAS, reporting a "loss of security jurisdiction."
In the future, knowledgeable security professionals would understand that if they saw a
"Z" code regarding a potential contractor employee, they should contact SEC to receive
further information on that individual. No formal adjudicative determination by the DIA
CAF existed regarding the contractor employee's clearance/access to classified material.
Additionally, after three years, the contractor employee's paper file was destroyed.

Therefore, during a future background investigation, OPM potentially would never
discover the IG report of investigation unless the OPM background investigation scope
sheet contained a requirement that the investigator consult with the Agency IG. OPM
staff told us that OPM investigators only conducted file checks with the Agency IGs
when an IG investigation was titled and indexed in DCII, or when the investigation
developed a lead indicating that the IG might have an investigative record.

Another technique that Offices of Security used was "withdrawing of eligibility for
security clearance/access." Because a security clearance was not denied or revoked, no
requirement existed for due process, even though the functional result-- i.e., the Subject
no longer had access to classified material and could no longer hold a job requiring such
access -- was the same. Under these circumstances, a possibility existed of one of two
events occurring:

    •   Contractor employees would go into a "security limbo" in which they would not
        receive due process; their misconduct would not be adjudicated; their security
        clearance would not be revoked or denied; and they would not be granted
        access to classified information or facilities.
   •    Or, contractor employees would be granted security clearances/access in
        another location at a later time.

Conclusions
The requirements of EOs 10865 and 12968 for due process in the revocation or denial
of contractor employees' security clearances/access have led to an avoidance of
personnel security adjudications. On the part of government agencies, this results from
an effort to avoid time and resource intensive due process procedures. On the part of
contracting companies, it may result from an understanding that a preemptive
"termination" or "resignation" could reduce the potential for suspension or debarment,
and might also preserve the contractor employee's security clearance/access eligibility
for possible future use.

Recommendation, Management Comment, and Our
Response
C. We recommend that USD(I) initiate the process to revise EO 12968 by requiring
that in substantiated misconduct cases personnel security clearance adjudicative
actions continue, even if the contractor employee has been terminated andjor no



                           Report No. DODIG-2014-0601 25
longer has access to classified information. If the misconduct is sufficient to
warrant denial or revocation of security clearance/access, then that action should
be formally accomplished.

USD(I) Comments

USD(I) concurred with the recommendation, and offered to submit our
recommendation to the Director of National Intelligence, who is responsible for
coordinating national personnel security policy with the Executive Office of the
President.

Additional DIA Comments

Although DIA was not required to comment, it disagreed with the recommendation,
stating that:

       "Recommending that actions continue in the case of a contractor that no longer
       requires an eligibility determination to be rendered is counter to and
       inconsistent with being good stewards of the taxpayer money and the Office of
       the Director of National Intelligence policy that only those that require access
       are granted eligibility. An appropriate notation entered into [JPAS] and
       Scattered Castles would be sufficient to provide information to a future
       adjudicative authority."

Our Response

VSD(I)'s proposed course of action is responsive to the recommendation. With regard
to DIA's comment, we note that of the 94 IG investigative Subjects listed in JPAS, only 35
percent of the Subjects had relevant information contained in the incident report blocks
of their JPAS files.




                           Report No. DODlG-2014-0601 26
Finding D
Lack of Personnel Security Information Sharing
IC and DoD personnel security policies broadly require the reporting of unfavorable
personnel security information. We noted a lack of external information sharing
regarding security clearance investigations and adjudications. This condition occurred
because of the lack of policy, recordkeeping, and proper security adjudication/ due
process. As a result, contractor employees with previous, adverse/questionable, and
closed intelligence agency IG investigations were being inappropriately granted
security clearance/access with other IC elements.

Internal Personnel Security Information Sharing
If a particular Agency IG conducted an investigation and presumably completed a report
of investigation, it seemed reasonable to assume that the CAF of that same Agency
would in the future have been able to access that report of investigation and make a
fully informed adjudicative judgment. From the Agency IG investigations we reviewed,
we noted only three instances where this situation did not occur.

In two NSA cases, the NSA IG told us it had sent a copy of its reports of investigation to
the NSA Office of Security; however, the NSA Office of Security said it did not receive the
reports and had consequently taken no adjudicative action. In one DIA case, DIA CAF
told us that the security files of the two Subjects did not contain the DIA IG report of
investigation and that no security action was taken regarding those Subjects.

Lack of External Personnel Security Information
Sharing
We found that contractor employees were retaining security clearance/access- or were
being granted security clearances/access by another CAF at a later time. Of the cases
we reviewed, 45 percent (57 out of 128) of the Subjects continued to hold or were re-
granted security clearance/access after Agency IG investigations were closed.

After reviewing this data, we conducted data calls to several CAFs to see if any of the
CAFs had made a favorable security/access adjudicative determination on a Subject
who had been investigated by another Agency's IG. We sought to determine if
information had flowed from one agency to anothe r, which would give that agency the
ability to make a fully-informed adjudicative determination.

We noted one case in which an external agency CAF was aware of a Defense intelligence
agency IG investigation at th e time that CAF adjudicated th e Subj ect for security
clearance/ access. In 2006, one Subject was debriefed by the NRO Office of Security, and
was titled and indexed in DCII by DCIS in 2007 . SCATTERED CASTLES indicated that
the Subject was then briefed for a "Q" clearance by the Department of Energy (DoE)
from 2011-201 2. Do E told us it was aware of th e NRO IG report of investigation at the
time it made its favorable adjudicative decision.




                           Report No. DODIG-2014-0601 27
In all the remaining cases covered by our data calls, the CAFs of other IC elements were
unaware of the earlier Defense intelligence agency . IG investigations. Summaries of
some of these cases follow:

DCIS and DIA IG had investigated a Subject. Later, the Department of Homeland
Security (DHS) -- unaware of the earlier DCIS/DIA IG investigation -- granted the
Subject SCI access under reciprocity, based on DIA's adjudication. Then, in 2012, DHS
debriefed the Subject from SCI.

SCATTERED CASTLES indicated the Subjects of two NRO IG investigations were later
briefed for SCI by DIA. DIA CAF told us that:

         •   It had no adjudicative record of the Subject of one NRO IG case.
         •   It could not locate its paper adjudicative file on the Subject of the second
             NRO IG case, and its electronic index did not indicate whether the case was
             adjudicated with knowledge of the NRO IG investigation.

Eight Subjects of three NSA IG cases, four NRO IG cases, and one DIA IG case, were later
briefed for SCI by the Central Intelligence Agency (CIA). Regarding those Subjects, the
CIA told us that:

        "CIA Clearance Division reviewed the security records of the eight individuals
        highlighted in the DOD IG request. All eight individuals were originally briefed
        (crossed over) by CIA based on adjudicative guidelines for reciprocity of
        another agency's positive adjudicative decision. Depending on when the
        approval was made (processing varied based on the tools available at the time
        of the review) CIA reviewed JPAS; DCII, and/or Scattered Castles prior to making
        a determination, based on standard guidelines. On four of the eight individuals,
        our records indicate that CIA received adverse information subsequent to the
        crossover decision. As a result two were denied access, one is undergoing a
        reinvestigation, and the other requires an event driven action. CIA was unaware
        of the IG i11vestigations of the other four individuals until the DOD IG request. Of
        those four, three remain in access at this time. As a result of the supplied
        information, CIA will be reviewing their records and initiating personnel
        security processing as appropriate."

As stated earlier in this report, we provided our list of 128 investigative Subjects to
DODCAF an d asked it to review its files to determine if its predecessor CAFs had
received copies of the related investigative reports that the Agency IGs prepared.
DODCAF answe re d t hat it could only positively determine whether or not it had
received an Agency IG report on 20 percent of the Subjects (26 of 128); for those
Subjects, it had only received five reports-- all of them on NRO IG investigative Subjects.

Results of Lack of Personnel Security Information
Sharing
The misconduct documented in the IG investigations we reviewed did not result in
suspensio n or debarment, or generally in prosecution; furtherm ore, for 4 5 percent of
th e Subjects (57 of 128) it did not result in permanent denial or revocatio n of security




                            Repo rt No. DODIG-2014-0601 28
clearance/access to classified material.

       •      OPM has not routinely cross-checked the names of Defense intelligence
              agencies' current/former employees, military assignees, and contractor
              employees with the IGs of those agencies.

       •      Withdrawing either a) physical access to facilities; or b) eligibility for access to
              classified materials in lieu of formal denial or revocation of security
              clearance/SCI access appears to be a deliberate effort to avoid personnel
              security adjudication and the due process requirements for contractor
              employees contained in EOs 10865 and 12968, and DoDD 5220.6.
                                      --     -   - -   -   ---       -       -   -----          -   -

           Personnel Who Held Security Clearance/Access Following Closure of an IG Investigation *
   IG Office                                                          Number of Subjects Who Held
                        Number of          Number of
  Conducting                                                     Clearance/ Access Following Closure of an
                         Cases**       Individual Subjects
 Investigation                                                              IG Investigation***
 DIA                        20                    21                                15
 NGA                         3                     3                                0
 NRO                80              76                                              25
 NSA                28              28                                              17
 TOTAL             131             128                                              57
*Based on Datafrom}PAS and SCATTERED CASTLES.
**Of the 131 cases, two were duplicate reports and 12 involved exclusively corporate Subjects with
no individual Subjects identified.
*** Some of th e Subjects held or retained clearancejaccess that multiple agen cies granted following
the conclusion of th e JG investigation in which they were titled.


Conclusion
We found throughout this assessment that the appropriate DoD and IC databases
were not being populated with information on the Subjects of substantiated Defense
intelligence agency IG investigations. This affected the ability of CAFs across the IC
to conduct fully informed personnel security clearance/access adjudications. The
population of investigative and personnel security databases with accurate and
complete information is absolutely critical in preventing unsuitable individuals
from obtaining sequential personnel security clearancej access.

Recommendation D
We beli eve that our earlier recommendations (i.e., Recommendations A, 8, and C) will
enable effective internal and external information sharing.




                                    Report No. DODIG-2014- 0601 29
Finding E
Lack of Connectivity Between DCII and JPAS
No vehicle exists for entries in DCII to automatically flag JPAS. As a result, if a personnel
security adjudicator with authorized access queries JPAS regarding a specific Subject,
no mechanism exists in JPAS to tell the adjudicator that DCII also contains an entry.

Background
In June 2010, the Deputy Secretary of Defense directed that operational responsibility
for ]PAS and DCII be transferred from DSS to DMDC.

There was extremely limited connectivity between JPAS and DCII. DMDC staff told us no
vehicle currently existed for entries in DCII to automatically flag JPAS. Therefore, if a
personnel security adjudicator with authorized access queried ]PAS regarding a specific
Subject, no mechanism existed in JPAS to tell the adjudicator that DCII also contained an
entry. To determine if a Subject had a DCII entry, the adjudicator would have to use a
second password and authenticator to transfer from ]PAS to DCII.

Thus, although DCII's purpose is to ensure that investigative information on Subjects
titled and indexed in DCII can be retrieved at a later time, DCII does not have an
interface with JPAS to alert security adjudicative personnel.

Conclusion
The current lack of connectivity between DCII and ]PASS does not facilitate the
identification of investigative information titled and indexed in DCII by authorized
personnel security adjudicative staff.

Recommendation, Management Comments, and
Our Response
E. We recommend that the Director, Defense Human Resources Activity, develop
software to automatically flag the Case Adjudication Tracking System (CATS) of
the Defense Information System for Security (DISS) family of systems that a DCII
file exists on a specific Subject.

Defense Human Resources Activity (DHRA) Comments
In our coo r dination draft we recommended that DHRA develop software t o
automatically flag the personnel security adjudicative portion of ]PAS that a DCII file
existed on a specific Subject. DHRA concurred with that recommendation, but provided
the following clarification: that software should be developed t o "automatically flag the
personnel security adjudicative portio n of the Case Adjudication Tracking System
(CATS) that a [DCII] fil e exists on a specific subj ect. CATS, and not [J PASJ, is now the
primary personnel security system that th e [DODCAF] uses for adjudicati on pur poses.




                            Report No. DODIG-2 014-0601 30
CATS is one component of the Defense Information System for Security (DISS) family of
systems."

Our Response
DHRA's comments are responsive. Because JPAS is becoming a legacy system as the
Department moves toward DISS, we concur with DHRA's exception to our draft
recommendation and accordingly changed the recommendation.




                         Report No. DODIG-2014-0601 31
Other Observation
Observation A
Similar Issues with DoD Civilian and Military
Personnel
This study was conducted specifically with regard to a sample of unclassified
investigative summaries involving contractor employees. We note that the case
summaries contained in the Classified Annexes to the [DoD IG's] Semi-Annual Report to
Congress involving contractor employees were significantly outnumbered by those on
civilian and military Subjects assigned to the Defense intelligence agencies. We believe
further evaluation is needed regarding security clearance/access processing for the
Defense intelligence agencies' civilian employees and military personnel. We will
review this matter and work with the Agency !Gs to determine appropriate scope and at
what level the review should take place.




                          Report No. DODIG -2014-0601 32
 Appendix A
' Background
 On September 5, 2012, this office published the memorandum report, The Four Defense
 Intelligence Agencies Have Had No Effective Procedures for Suspension and Debarment.
 That report's objective was to determine if the four Defense intelligence agencies-- DIA,
 NGA, NRO, and NSA -- had carried out basic and effective suspension and debarment
 procedures. We found that none of the Agencies had ever debarred a contractor,
 consultant, or contractor employee. We also found that only one of the Agencies-- NSA
 -- had ever suspended a contractor, consultant, or contractor employee: NSA suspended
 three individuals in 2011 following their felony convictions in federal court.

 During our research fo r that project, we found that procurement and counsel staff
 assumed that Subject contractor employees involved in misconduct would lose their
 security clearance and access. We examined this theory using the same 131 cases that
 we had used in the suspension and debarment study. Furthermore, the contention
 ignored the fact that -- absent suspension or debarment -- individuals involved in
 misconduct that the Agency IGs investigated could work on unclassified government
 contracts even if they had lost their security clearance and SCI access.

  Prior to October 1, 2010, DoD IG published the Classified Annex to the [DoD IG's] Semi-
 Annual Report to Congress. The Annex was largely a compendium of significant audit
  and investigative case summaries that the Agency IGs provided. With their increased
  statutory authorities as IGs of Designated Federal Entities under the Inspector General
  Act of 1978, as amended, the IGs began publishing their own semi-annual reports to
  Congress, circa April 2011. As part of our research for the suspension and debarment
  study, we reviewed Annexes covering the period from October 1, 2000, through
  September 30, 2010. The case summaries indicated that the IGs had achieved some
 success in identifying and investigating misconduct by individual contractor employees,
  and that their efforts had generally improved over time. From Annexes covering that
  10-year period, we selected 131 unclassified investigative case summaries involving
 contractors in the Defense intelligence community. Our selection of cases represented a
 judgmental sample at several levels. First, in determining which cases to report to us,
 the IGs had made their own judgments regarding which cases were "significant."
 Secondly, we selected only unclassified case summaries from the Annexes in a deliberate
 effort t o make Th e Fou r Def ense Intelligence Agencies Have Had No Effec tive Procedures
 for Suspension and Debarment available for the widest possible dissemination.

 Sixty-eight percent of these cases (89 out of 131) involved time-and-attendance fraud
 by individual contractor employees or groups of contractor employees. In the 86 cases
 involving individual employees, the loss per employee ranged from $433.00 to
 $2 65,698.00. The median loss was $32,443.88, and the average loss was $41,788.96. In
 the 89 time-and-attendance cases, the aggregate loss was $4,336,140.40. In most
 instances, these losses were fu lly recouped from the contractors' employers.
 Therefore, a widespread belief existed among the personnel security staff and at the
 Department of Justice that recouping the losses made the government "whole" again,
 thereby reducing the need for further action.




                             Report No. DODIG-2014-0601 33
We expected virtually all of the Subjects to be referred to the appropriate CAF for
security clearance/SCI access adjudication. However, our current review proved that
this did not necessarily occur. The DoD personnel security program's purpose is to
ensure that granting federal employees, military personnel, contractor employees, and
other affiliated persons access to classified information is clearly consistent with U.S.
national security. In considering the continuum of misconduct documented in the IG
investigations, a point is reached when the ability of the contract employee to
responsibly hold a security clearance and have SCI access must be questioned.




                          Report No. DODIG-2 014-0601 34
Appendix B
Scope and Methodology
This evaluation was conducted from September 2012 to January 2014, in accordance
with Quality Standards for Inspection and Evaluation that the Council of the Inspectors
General on Integrity and Efficiency issued. Those standards require that we plan and
perform the evaluation to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our evaluation objectives.
To accomplish our objectives we:

   •   Reviewed applicable EOs, and DNI and DoD personnel security policy.

   •   Sent data calls to the four Defense intelligence agency IGs asking them to
       provide biographic information -- name, employer, employer Commercial And
       Government Entity (CAGE) code, date and place of birth, and social security
       number -- for the individuals they had identified as Subjects of their 131
       investigations. We also asked for the security clearance and access level of these
       Subjects at the time of the IG investigations, and whether the IG had referred a
       copy of their report of investigation to their Agency CAF or any other CAF. In
       response to this data call, the Agency IGs identified 128 individual Subjects. All
       subsequent data calls depended upon the accuracy of the responses to this data
       call.

   •   Received the data provided by the Agency IGs and sent data calls to the DIA,
       NGA, NRO, and NSA CAFs, and to DODCAF requesting that they determine if they
       had received copies of the IG reports of investigation, if they had conducted
       security clearance/access adjudications as a result of the reports, and the results
       of those adjudications.

   •   Discovered that some contractor employees held security clearance and access
       with subsequent agencies following the closure of the first agency's IG
       investigation, therefore we sent limited additional data calls to determine if the
       subsequent agency's CAF was aware of the first agency's IG investigation.

   •   Interviewed personnel from DIA, NGA, NRO, NSA, DODCAF, DMDC, and OPM
       regarding procedures at their organizations, and requested they provide
       supporting agency documentation.

   •   Conducted checks in DCII and SCATTERED CASTLES on the Subjects identified
       by the Agencies' IGs. The SCATTERED CASTLES database is the IC's
       authoritative personnel security repository for verifying personnel security
       access approvals regarding SCI and other controlled access programs. By using
       SCATTERED CASTLES rather than }PAS, we were able to determine if the



                           Report No. DODIG-2014-0601 35
        individual Subjects of the IG investigations had subsequently held security
        clearance/access not only with DoD entities, but within the IC outside of DoD.

    •   Noted some anomalies in our data, and ultimately requested that DMDC provide
        information from the Subjects' files in JPAS.

    •   Culled data from a variety of sources and databases. During our effort, we noted
        data anomalies which we were unable to fully resolve. This report represents
        our best effort to coherently integrate the information provided to us.

Limitations
We did not evaluate the personnel security adjudicative decisions that the CAFs made.
It is within the scope of authority of the Directors of the Defense intelligence agencies
and DODCAF to grant security clearance/access within adjudicative guidelines to those
they believe appropriate in achieving the Agencies' and DoD's operational missions. We
also note that operational needs, the passage of time, and other mitigating factors may
override adverse personnel security adjudicative decisions.




                           Report No. DODIG-2014-0601 36
Appendix C
Office of the Under Secretary of Defense for
Intelligence Response to Our Draft Report

                           OFFICE OF THE UNDER SECRETARY OF DEFENSE
                                             !1000 DEFENSE PENTAGON
                                            WASH INGTON , DC 20301 ·!1000


                                                                                             FEB 1 9 201~
   I NTU.UCii~CIE



        MEMORANDUM FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL

        SUBJECT: Response to DoD IG Draft Report, "An Assessment of Contractor Personnel
                 Security Clearance Processes in the Four Defense Intelligence Agencies (Project No.
                 D2013-DINTOI-0009.000), January 28, 2014

               In response to the January 28, 2014 request for comments on an update to OIG Report D-
        2006-077, we provide the following responses pertaining to DoD IG recommendations for the
        Office of the Under Secretary of Defense fo r Intelligence (USD(I)).

        •    Recommendation A. I: Develop and issue an overarching policy governing Joint Personnel
             Adjudication System (JPAS) operation.

                USD(I) Response: USD(I) concurs with this recommendation. Given the challenges
        inherent to the goverrunent policy issuance process, we have issued JPAS policy via memoranda
        over the past severa l years and agree that a consolidated overarching policy is needed. DoOM
        5200.02 Volume I, "DoD Personnel Securi ty Program (PSP): Investigations for National
        Security Positions and Duties" and DoDM 5200.02 Volume 2, "DoD Personnel Security
        Program (PSP): Adjudications, Due Process, Continuous Evaluation and Security Education, as
        described below, each provide overarching policy governing operation of JPAS and its successor
        system (the Joint Verification System), to include requirements for recording issues of security
        concern and adjudications that are based on exceptions due to presence of adverse information.
        Since Volume 2 is still in the formal comment period, we have an immediate opportunity to
        ensure that we incorporate the IG 's recommendations and address the need for JPAS
        functionality as discussed in the IG report.

        •   Recommendation A.2: Coordinate with Office of Management and Budget (OMB) to
            finalize updates to- or replacements for - the following Departmental policies:

            USD(J) Response: USD(I) concurs with the recommendation to finalize updates or
            replacements for the policies. We do suggest nuancing the recommendation to reflect the
            diversity of roles and responsibilities that pertain to the policies that are of concern to the
            DoD IG. To assist in appropriate rev isions, we provide more detail about the ownership and
            status of the policies listed in Recommendation A.

            a. DoD Directive (DoDD) 5220.6, " Defense Industrial Personnel Security Clearance
               Review Program," April4, 1999

                Status : DoDD 5220.6 does not fall under the authorities of the USD(I). It is issued by the
                DoD General Counsel (DoD GC). The DoD IG should correct the findings to assign
                responsibility for this recommendation to the DoD GC .

            b. ·DoD 5200.2-R, "Personnel Security Program," February 23, 1996




                                  Report No. DODIG-2014-0601 37
        Status: The DoD 5200.2-R is being replaced by DoOM 5200.02 Volume 1, "DoD
        Personnel Security Program (PSP): Investigations for National Security Positions and
        Duties" and DoOM 5200.02 Volume 2, "DoD Personnel Security Program (PSP):
        Adjudications, Due Process, Continuous Evaluation and Security Education."

        Volume 1 has been in the Office of the General Counsel, Intelligence (OGC(I)) since July
        29,2013 for legal sufficiency review. Following the OGC(I)) review, OUSD(J) will
        expedite making any required changes before moving the policy to DoD OGC for
        approval. Thereafter, USD(I) is required to coordinate with the Washington Headquarters
        Service (WHS) Federal Register Liaison Office (FRLO) which coordinates with OMB to
        meet OMB's requirements for publishing the policy as a federal rule .

        The formal coordination of Volume 2 closed January 17,2014. USD(I)'s goal is to
        complete adjudication of comments by March 7, 2014. Thereafter, the policy issuance
        process will proceed according to steps established by WHS as published at
        http://www.dtic.mil/whs/directives/corres/writing!DOD_process_home.html and
        according to timelines established by the Director of AdministTation and Management in
        DoD Instruction 5025 .01, "DoD Directives Program." Once through the DoD policy
        issuance process, USD(I) is again required to coordinate with the WHS FRLO to navigate
        the proposed policy through OMB's rule making process.

    c. DoD 5220.22-R, "Industrial Security Regulation," December 1985.

        Status: The DoD 5220.22-R will be replaced by DoD 5220.22M Volume 2, "National
        Industrial Security Program : Industrial Security Procedures for Government Activities."
        The DoD will work with WHS who coordinates with OMB to publish the policy through
        OMB's Federal Register process. The DoD is currently working with OMB to format the
        volume and to complete information collections according to OMB requirements (e.g.,
        approval of a revised DD Form 254, "Contract Security Classification Specification.").

    d. DoD 5220.22-M, "National Industrial Security Program : Operating Manual," February
       28,2006

        Status: The DoD 5220.22-M was updated and posted to the Washington Headquarters
        Service Website for DoD Issuances on March 28, 2013 .

    e. DoD 5220.22-M-Sup I, "National Industrial Security Program: Operating Manual
    Supplement," February 1995.

       Status: DoD5220.22-M-Sup I will be canceled when the next conforming change to
       DoD 5220.22-M is approved. The policy is currently being processed through the formal
       DoD policy issuance process. Our goa l is to issue the conforming change by January l ,
       2015.

•   Recommendation B.l.a: Prepare an overarching policy governing the operation ofDCII,
    including .identification of the categories of investigations to be titl e and indexed, and the
    retention criteria for invest igations so titled and indexed.


                                                  2




                          Report No. DODIG-2014-0601 38
             USD(I) response: Concur. We will convene a working group to develop, as appropriate,
             overarching policy governing the operation of the DCII by September 30,2014.

    •    Recommendation B.l.b: Direct the Defense Intelligence Agencies to review the procedures
         that their Offices of Security use to ensure that JPAS and Scattered Castles are being
         properly populated.

             USD(I) response: Concur. USD(I) will issue a memorandum directing the recommended
             review by April 15 , 2014.

    •    Recommeodation B.l.c: Direct the Defense Intelligence Agencies to ensure that the
         Subjects of Agency JG criminal investigations are titled and indexed in DCIJ in accordance
         with DoDI 5505 . 16.

            USD(l) response: We concur with the recommendation to ensure that the subjects of!G
            criminal investigations are titled and indexed in the DCII. We will work with the DoD IG
            to determine the correct authorities for issuing such a requirement.

    •    Recommendation B.l.d: Ensure that subjects of past investigations are titled and indexed in
         the DC II either by requiring OPM to conduct checks of Defense Intelligence Agencies ' IG
         records or directing the Directors of the DoD Intelligence Agencies to ensure that subjects of
         past IG criminal investigations are titled and indexed in the DCII .

            USD(l) response: We concur with the recommendation to ensure that past investigations
            are accessible in background investigations for determining eligibility for access to
            classified information. USD(I) will explore both options by June 30,2014 and identify
            the best way forward.

•       Recommendation C: Initiate the process to revise EO 12968 by requiring that in
        substantiated misconduct cases, personnel security clearance adjudicative actions continue,
        even if the contractor employee has been terminated and/or no longer has access to classified
        information.

            USD(I) response: Concur. To initiate the process, we will submit the IG 's
            recomm endation to the Security Executive Agent (i.e., the Director ofNationaJ
            Intelligence pursuant to EO 13467) who, in tum , is responsible for coordination of
            national personnel security policy with the Office of Management and Budget's
            Executive Oflice of the President.

                                                                    My point of contact is • • • •




                                               ~{4~~                       ill"lligeoe<
                                                     (Intelli gence & Security)

                                                    3




                             Report No. DODIG-2014-0601 39
AppendixD=-=====
Defense Intelligence Agency Response to Our Draft
Report




                                   DEFeNSE INTELLIGENCE AGENCY

      U-14-85,023/SEC                                                                 February 18, 2014

      Defense Intelligence Agency Comments on the Draft Report for Review: An Assessment of
      Contractor Personnel Security Clearance Processes in the Four Defense Intelligence
      Agencies

       This paper responds to a request to review and comment on the above referenced draft report
      from the Department of Defense (DoD) Inspector General (/G).

      Findings and recommendations provided by the DoD IG illustrate the inconsistency of the
      information provided and available to the adjudicative offices in the Intelligence Community.
      When information regarding a contractor is missing from any one or all of the available
      databases, it is possible for subjects to move from one contract vendor to another or from one
      agency to another without completing the security processing in the previous assignment.

      Response to Recommendations Specific to Defense Intelligence Agency (DIA)

      •   Recommendation B.2.a. DIA agrees with this recommendation. DIA offices currently enter
          data into the Defense Central Index of Investigations.

      •   Recommendation B.2.b. DIA agrees with this recommendation. DIA already has a process
          in place by which the DIA Office of Security and DIA IG notifies the Department of Defense
          Consolidate Adjudication Facility (DoDCAF) of derogatory information regarding contractor
          personnel.

      •   Recommendation B.3. DIA agrees with this recommendation. DIA already has a process by
          which DIA IG notifies the DoDCAF.

      (U) Responses to Recommendations Other Than DIA Specific Recommendations

      •   Recommendation C. DIA disagrees with this recommendation. Recommending that actions
          continue in the case of a contractor that no longer requires an eligibility determination to be
          rendered is counter to and inconsistent with being good stewards of the taxpayer money and
          the Office of the Director of National Intelligence policy that only those that require access
          are granted eligibility. An appropriate notation entered into Joint Personnel Adjudication
          System and Scattered Castles would be sufficient to provide information to a future
          adjudicative authority.

      cc: Defense Intelligence Agency, Director
          Defense Intelligence Agency, Inspector General
          Defense Intelligence Agency, Office of Security



                                   Committed to Excellence In Defense of the Nation




                                Report No. DODIG-2014-0601 40
Prepared by:                , Oir·ectorate       Services, Office of Security, Perso!Ulel
Security Division, Staff Director,




                                                 Stephen R. Norton
                                                 Director of Security




                                             2




                          Report No. DODIG-2014-0601 41
Appendix E
National Geospatial-lntelligence Agency Response to
Our Draft Report



                               UNCLASSIFIED// _ _ _ _ _ __

                                 NATIONAL QfOSPATI I.- INTELLIGENCE AGENCY
                                                         1!001#£0Mtlf.rt
                                                        - .... lllld,\',IJha U iloG




             EMOAANOUM FOR IIISPECTOR GENERA DEPARTMENT OF UEFENSE
                           UEPIJlY fNSP ·CTOrl G . N RA FOR INTEl. IGEti CE AND
                              SPECIAL PROGRAMASSESSMENJ'S. DEPAATM~ 0
                              [)£FE 5£

           SUBJECT:                  (U) Na1iooal Ooospatlsl-lnlell-gooce Agency Respo.nse !o Ploj!Ja
                                     No. 02013-DINTO l .(JOOD.OOO
           REFERE :CE:               (U) 'All As&..>ssmenl of Contractor Pers0011e:1 Secur~ CiealalbOfl
                                     Protl.l~o~ ifl ro Fow Dei J1$0 lrr~Higcnce N{J n.c~ea · ~P10je<:t
                                     No. OZ01J Olf'fl OHIOO!i.OOO}, ?.8 Jnf'lullry 2014
           1 (IJ) Jl nk '1'00 f<lf o oppollurrily 1o o:t~rnm rl Oil lite ::wbju~ d1 Rreport          1 1~   lflllrno
           i!.lll rcspons.e lll lhe reromml!!1dnllir!!i fss.Hed l11 lhe refett;(IC"tl .



                    (IJ) 1Je l)3oln~ l of Oofun~ . lrml)lldo1 Ger'I!JmltOoOIG) ROCOII 'JCndiJll()ll: "Tiwe
           1he Directars of the OlA, NGA. NRO, and NSA ill1he absence of a o~erarch lng OCLI
           !l<lliey, C'lilluat<l liU1   nd in!hlmlg 1111hc DC litho &I i!O<:CS ol all nOfl-triMal
           mvesl.l;lflliloos oonQIK:1eflll1 II AQ<lfll:y 1 ~e~llga i'loe m fr •

               b. (U) alion<rl Goo~aliut- l nlei ~J# 1U NJ IIC'( (NGAI Rc$1KJn&o: NGA OOf!Curs with
           the re1;0mmenctalillfl T1 NGA Oft!Oe of Sea rnty {S I S~ \'llQovalv;t: 'tilllf)Q n~ lnda · g
           in tho Dof,enso Ccn•ral lllde<x of lnvealtga1ioos (OCU) da1abase. SIS curren tly has ontt
           vie~ (1()00$1; to Hie OC! I. Aulho;11y for DC II ftrll uGer OOOCS$ would allaw NGA 10 inif .x
           persoflflel eect.~~lt)' lrvif!V.Jg3llom.111H1 polygrnph e ~ a n lll illloos. In nddiiiQfl to I n~ etct
           General IG} i wesbga'.iofrs. SJS II requesl DCII fulllfS9r acc.ess no la1e:r than 30 .AfJril
           rol4 . N; oi'26A119!412013, II~<~ NGA. Ollioo ol ln~tor c..;ef'lrn<tl (0 G) 11< r~; 0\'iTI
           OCII illOCOtlnl tth fu! art;ess ~ DCI I, ndudill!J 1M ability ~0 periomllltr,~ and Indexing
           NGA OIG will O'l'aluate lilhng a lndtrong or subjects of otG nOR-aimin.al inves1ig-.'l rrs
           In C..ll

           3. (U) Re<:cmmeMllll<lll B ~II .

                . ft.IJ VOOIG R.ec-ommenool()n: ' fM1     OJre¢101$ o-1 0 NC..tl, Nl , • .00 NSA
                11hclr Offices ol Security to d •eklp forma pfocedures to e .ure lhiJ1 reports.c,
           lrWC1lllgi111WJinto n~Jur;t by 'ontractCf pcr$0<1MI t1r rcportllel fo D()!)CAF •

               b, tUJ GA R~jXI!lse· ~~GA OOI'ICIJ~ Y.ilh tile reco.rrvnend<r n, SIS has il<llud•c.aii'Ie
           rru 10tlly ¥ 1 DoO coobactorG ;md CT a~91 ~fld ad "dlts1 al ro~ o1
           mtscon.dud oo comrllcttlf p rwnrlel R!S w 1cnl r repol1s of n~U!C'I by c:Qntr:)(;l r



                              UNCLASS IFIED f l · · · · · · · ·




                         Report No. DODIG-2014-0601 42
                        UNCL ASSIFIED!I'_ _ _ _ _ _ __

 SUBJ.ECT: (U' Nn~lollBI G~s.11                         In ll:gr: '         An nty Re~porw      Pu,1jQCI o ,
 0~\3-DINTD t.~. DOO

pef:WMCII 1~1 0 U19 De{) JM r .l'$(!1'1n1JI AtJ:Ud-o.lh ll 511       l 01!d wiDI ll'J lop tam~ I
proeet;tt ell bO «I~S e t1 1 fif(l<lrl8 ol lilWISliga!kln are !Ofw reled l.o lhe Ool)
CofUoOitdaJ.ad Ad jUdle<!t.IOI'I F'iKi.lrt•dC•1f nt;~l~ r 01 11 30 Juno 1 ~ "

4. (U Reoomrnen!Sntlon 1'1.2-c:.

    a (U) OGD ; :r«ceonltnoodab<ln: • II"IIU IM Dhoctors or DIA, NGA, NRO, llt'l~ NSA
  Jl$            oc 11'<lb liTO In ~~
                                    lo l'rtUro tho f;wgn:1i;Jk:t 11(11¥-.lflrl!J I 11.cc:u1 y d]ulrldl!ln.-.!
d!1~i!-Jn'llhot..a f\s m;W 1'1. '1 cx..'l\dl
                                    · ns, dtl'V!Ot.IOIY!i, or walv "llr ~Ill rod ln 1ho
'E:O:Cef:lklon Information' bmk or 1ho Su or. :; SCA Tf!fl           CASTI. S 1 .'

    b" (U) ti'OA f~      &portae: NGA 00f1Wr5 with                      tho rewmmcnde1ion. Ali f<1•1   r;~   1o
pc• wrrrw~l    cvnty d~r: lmh 1.101 ll!ltld witll co1 ilte1 _. cl liilll4, or wa: rs re
dOCU!'Il tYled ftl   ' EXCC!) r I orn tlDII" tlklckoJ 19 s.ub~t'S 5CAli EH 0
CASTlES file.

IS. (U) RllW!nmondll ' n B ~ -
   i! (VI DoV«3-Itowmmondnt n: "Thn thgo huJ1C!Clotr. G~ n1l Qf PII\, NGII. NflO,
and NSA ~.'Cfk 1 li the ON!c~ (If &!currly of 1twse A~ncle$ lo n1tJTC lhll! IG 1-llj.)Otts ol
hwo~~lg;JIIQfl ni:CHTlil.<:oo 1c.1 (I;Qitlro~ror PQ<~o I llW 1 port 110 [)PI){:/IF ."

    b. LUI NGA R61ipoos . NGA 00<1                        11$11    1h 1h ~ rocomm nd.i!tlon. Th NCJ.A O!G
~~a~llkl'         rCipOJb or IP'I'Iflslig:ll " 111S h',1o fniscooriuct ~ NGA em n aM car ctor
empfa)'eea lo tl"le &1&101' l'lroTmiltJon and re-ad w.ca::lon puf]JOSll SIS ll ~lll!n4 t O
                                                m
•'fl;llllo: will'l 0 IG 1D IIS<ur - l'¢p0<11$ lnv!.'SII~. li O<!t           '"I)
                                                                        fOI't.'ilni'ud 10 eire DoDCAf_T1
proooss ·, I be hi J>laee no li!!:Elr lhan lO Juoo 20111.




                                                         Leb A. loog
                                                            nil tor

c.:· U1· w Seer litl'!' Q1 D r       ltfll!l   IIlli   l n~nlt   .,Ill:<'




                                     2
                      UNCLASSIFIED/_ _ _ _ _ _ __




               Report No. DODIG-2014-0601 43
Appendix F
National Reconnaissance Agency Response to Our
Draft Report

                                                 UNCLASSIFIED

                                      NATIONAL RECONNAISSANCE OFF IC E
                                                  14675 Lee Road
                                              Chonlilly, VA 201 51-17 15




   Office of the Director

                                                                             21 February 2014


          MEMORANDUM FOR INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

          SUBJECT :         National Reconnaissance Office Response to Department of
                            Defense, Inspector General Draft Report

          REFERENCE:          Inspector General, Department of Defense ~lemorandum and
                              Draft Report, An Assessment of Contractor Personnel
                              Security Clearance Processes in the Four Defense
                              Intelligence Agencies (Projec t No . D2013-DINT01-
                              0009.000), 28 Jan 14

                Thank you for your work on the above referenced subject and the
         o ppor t un i ty t o commen t o n t h e recoJnme ndat i o n s i d e n t if i ed fo r t he
         National Reconnaissance Office (NRO).              The draft report
         recommendations table on page iv indicates that responses are required
         from the Director, NRO for Recommendations B.2.a and B.2.b, and the
         Office of Inspector General (OIG) for RecOJnmendation B. 3 .

              The NRO's consolidated response and comments on the
         Recommendations are as follows:

                   a. Recommendation B.2.a.   In the absence of an ove r archi n g
         DCII policy, evaluate titling and indexing in the DCII the Subj ec t s of
         all non-criminal investigations conducted by all Agency inve s t igat i ve
         elements.

                                The NRO disagrees with implementing Re c ommendati o n
         B.2.a at the NRO . The NRO has considered this recommendation and
         int e rpre ts "non-criminal inves t iga t ionsu to pertain t o personnel
         security investigations.             Individuals determined eligible for and
         bri e fed into Sensitive Compartmented Information (SCI) ac c ess with a
         Co ndi ti on , Dev i a ti o n , or Wa i ver ar e r e fl ected ac~ord in g ly in Scattere d
         Castle s .      It i s our understanding a nd interpre t at i on t ha t th e Defense
         Central Inde x of Inves t ig a tions ( DCII) i s no l o n g er u s ed f o r t his
         p urpo s e, as t h e repo rt indi cates o n page 3 , s e co nd bull e t, si nce
         p e r so nn e l sec u rit y invest i ga t ive a nd ad jud icative r ecords were r e mo v e d
         fro m the DCII.

                      b.    Recommenda tion B.2 . b . Dire ct t hei r Offices o f Secu rity
         to devel op f o rmal pro cedu res t o e n s u re t h at r eports of invest i g ation
         i nto mi s con d uct b y con tr ac t o r p e rsonnel a re repor ted t o t he DODCAF .




                                               UNCLASSIFI ED




                                   Report No. DODIG-2014-0601 44
                                  UNCLASSIFIED


    SUBJECT:   National Reconnaissance Office Response to Department of
               Defense, Inspector General Draft Report

                The NRO disagrees 1-1ith implementing Recommendation
B.2.b at the NRO.   A process is already in place that ensures NRO
Office o f Security and Counterintelligence (OS&CI) reports denials and
revocations on contractors Hith Department of Defense (DOD) equities
directly to the Department of Defense Central Adjudication Facility
(DODCAF) . All o ther cases involving derogatory information developed
on contractors during personnel security processing are reported via
Scattered Castles Daily Exception Reports, which a re available to DOD.
In addition, the NRO OIG reports cases involving misconduct of
contractor personnel to OS&Cl, and this information is reported via
Scat tered Castles Daily Exception Reports.

          c. Recommendation B.3. We recommend that the Inspectors
General of DIA, NGA, NRO and NSA work with the Offices of Security of
those Agencies to ensure that the IG reports of investigation into
misconduct by contractor personnel are reported to DODCAF .

                The NRO Inspector General agrees with including
Recommendation B.J for the NRO.    The NRO OIG has a transmittal
memorandum template that accompanies all responses sent to the NRO
OS&CI . This template contains language request in g OS&CI update all
appropriate databases upon r e ceipt of a report.  The OIG and OS&CI
have regularly scheduled meetings to address various issues and the
OI G will use this forum to continue working closely with OS&CI and
ensure that all OIG investigations are correctly reported.

     Questions concerning this response may be directed to my OS&CI
point of contact,       •         • · Personnel Security Division, at




                                           /1TiJ07'
                                          Betty J. S'app


Attachment:
(U) SD Form 818 , Jul 10




2
                                 UNCLASSIFIED




                      Report No. DODIG-2014-0601 45
                                                                          UN CLASSIFI ED
                           COM i\U: NTS !\·IATRLX FOR Doll ISS UANCES : Co ntrn cwr l'€.•rso nul'l Secu r ity C lrnr<~ nn· 1-.: 'ul uuti on
                                                 (1'/.:tu e rcto.:!..}!wmctioll \ 1111 bod( hl!fi_
                                                                                                 ".'.:.'...cc_m_,nfc''-
                                                                                                                     .. " -i".:?.ge...
                                                                                                                                  f o_r_m_:_
                                                                                                                                         .J_ _ _ _ _ _ _ __ __ _ __
                                                                                                                                                                                                   ~-
                                                                                (:()\l\ll~'\1 /'ii ,J I "il ll·lr \ IIC W , ,\ ~0 OtUt ;I " •\I"OU JrSJIII C" \ I If)'\' FO il R I:.SOLIJII Cl;\   Ill



                                                                             Cuo nJln:ttor Co mmL·nt: T he               uf lnspt'l:lor Ge llc r:l l (OIG) h ~~ :1 point
                                                                             of d nri fi cou ion in the rqwrt. 'l11 c OIG bt.•lic\'CS thnt unc of our
                                                                             invcstignt nrs m.1y lu\\'e misc; pokcn \\hen inter\'i cwcd. Th ~ OICi has tte vcr
                                                                             hnd ac\css to th~ Defense Cri mi nal Index of lnHstign tions (DCIJ)
                                                                             dnrnbasc. ·1he Ol(j has always rc li<d on rhe NRO Ollie< of S<e ur ill' and
                                                                             l'oun tcrin tcll igcn(e 10 tit le :H.td index subjects of OIG invc. t ignt i on ~ in the
                                                                             nppruprimc sy:,tem(s) of                 re ~·ord .


                                                                             f'n orclinuro r    . l1t~ tifit:n t h1n :


                                                                             U r igl illllor Ju!O tilil'Uiion ror Hcsolurlon :

                                                                             f'oonlin:1111r f'nmm cnl:

                                                                             C o •~nlimllor     .lusllfic111fnn :

                                                                             Ori gin a aor . Ju~tilic a li o n fur n h olurion:

                                                                                   - - - - - - - --
                                                                             Coo rd ln:Hor Commrnr :

                                                                             Coo nJin :1tor     . lu~ liOcati o n :


                                                                             O r iginur or .lu stifi c:1tion for llcso lu tion:

                                                                             Counlin.at o r Comm cnr:

                                                                             ('culnlln:llclr    .lu ~ rln l' llli o n :
                                                                                                                                                                                                   J
                                                                             Ori ginator .lustiti rn tlon fo r Rrsoluli on:




SIJ FORM RIH,.JI II . IU                                      I'REVIO US f: I>I TION IS OllSOL. H E
                                                                          UNC LASSI FIED




                                               Report No. DODIG-2014-0601 46
AppendixG
National Security Agency Response to Our Draft
Report



                                                           UNCLASSIFIED
                                             NATIONAL SEC UR ITY AGE N CY
                                        FOIH OF.OilGt: G. ,...EAOC, MARVL A,ND 20755-6000



                                                                                 25 February 2014

           MEMORANDUM FOR DEPUT Y ASSISTANT IN SPECTOR GENE RAL FOR
            INTELLIG ENCE EVAL UATIONS

           SUBJ ECT: An Assessment of Contrnclor Personnel Securit y Clearance Process in the Four
                     Defense Inte lligence Agencies (Project No. 0201J.lliN TOI-0009.000) - ACTION
                     MEMORANDUM


                   (U) Per your 28 January 2014 request for comments from the Director of NSA
           concerning the Rccommendalions set forth in your druf\ Assessment of Contrac tor Perso nnel
           Security Clearance Processes in the four Defense Intelligence agencies (hcreuficr. Report), we
           address two general points, as well as the specific subscction!i with in Finding B, Luck of
           EITeelive Recordkecping, as they upply to NSA.

                  (U) The first general point concerns page fi ve, Findiny B, Lack of Effective
           Reco rdkccping. The bas is upon which yo u find th at the NSA Office of the Inspector Ocncrul
           (OIG) locked eiTcctivc recordkeeping is un clear. The O IG provided oil of the DoD 10-requestcd
           dm: uments, and to our knowledge, the OIG was neither intervie wed nor otherwise reques ted to
           provide infommlion regarding rccordkeeping pructicc s, To the ex tent thut the finding stem s from
           evidence th ot the in vestigati ve and personnel dotabases, poniculorl y the Defense Ccntntl Index of
           Investigation (DCII), were not reliably populated, the OIG belie ves thut this problem muy stem
           from a lack of overarching po li cy governing DC II operations.

                   (U) The second general point is that the statement on page II of the Repon thot " ]d]ue to
          constrained funding, th e NSA and NRO Offices of Sec urity ind icated that they have suspended
          the conduct of periodic reinvestigations for contractor employees ... " does not occurotely rcncct
          the situation. In fact, the NSA docs not fund its own periodic reinvestiga tions for contmctors;
           NSA fund ing was not an issue. ' To be clear, NSA did not suspend the conduct of period ic
          reinvesti gations for its co ntractor populntion. While not speaking on behulf of oth er ugcncics ,
          NSA understands that the DSS (Defense Security Scrvke) and NRO (National Reco tutuissuncc
          Office) had susponded conduct of cont rnctor periodic reinvcsti g111ions for 11 ccnain peri od under
          funding constro ints.

                 (U) Otherwise, Recommendations 13(2)(u-c) ond H(J) in you r Rcpon make specific
          recommendations concerning NSA. Accordingly, we ud..Jrcss cuch oflhcsc Recommendations
          sequentially:

              •    (U) ll(2)(a). Rccomm cndution that the Director of NSA "[i]n the absence of on
                   ovcrarching DCII policy, ev11lu ute titling und indexing in the DCIIthc Subjects ol' ull
                   non-crimi nal invest igations conducted by all Agency in vestigat ive clements."


          I (U) /\1 NSA, the DoD funds con!ractor (ahu kn011 nus industriul) periodic rd m·estig.a tions (PKs) .


                                                          UNCLASSIFIED




                              Report No. DODIG-2014-060 1 47
                                    UNCLASSIFIED


    Disagree. We disagree with applying Recommendation ll(2)(n) to the extent thut it
    would apply to security investigations. The DoD-designated repository for investigations
    of security significance is the Joint Personnel Adjudication System (JPAS). NSA already
    submits all such cases on DoD contractors to JPAS and to SCA n ·ERED CASTLES (as
    the IC repository).

•   (U) B(2)(b). Recommendation that the DirectorofNSA "[d)irect [its Office) of Security
    to develop fonnal procedures to ensure that reports of investigation into misconduct by
    contractor personnel are reported to DODCAF" (the DoD Consolidated Adjudication
    Facility).

    ~-      Prior to the establishment of the DO DCA~· in fiscal year 2013, investigations
    were reported to the Defense Industrial Security Clearance Office. Since then, any case
    involving contractor misconduct with n national security clcaro.ncc eligibility nexus has
    been reported to the DODCAF in accorduncc with intemal standard operating procedures.
    We will continue to enforce our internal procedures that require the reporting of any
    derogatory infonnation regarding DoD contractors to the DODCAF.

•   (U) B(2)(c). Recommendation that the Director ofNSA "[ejnsure that controls nrc in
    place to ensure that favorable personnel security adjudicative determinations made with
    conditions, deviations. or waivers are documented in the 1 Exception lnfonnation' block
    of the Subject's SCA1TERED CASTLES file."

    ~-       NSA has provided infonnation to SCATIERED CASTLES since circa 2002. In
    accordance with lCD 704 (Personnel Security Standards and Procedures Goveming
    Eligibility for Access to Sensitive Compartmented lnfomtation and Other Controlled
    Access Program Information), procedures are already in place to ensure that this
    infonnation is entered into SCA TI'ERED CASTLES.

•   (U) 8(3). Recommendation that the NSA 10 "work wi th the Offices of Security of
    [NSA) to ensure that 10 reports of investigation into misconduct by contractor personnel
    are reported to DODCAI'."

    Disagree. As written, the proposed Rccommendlltion language could impair the
    independence ofthc NSA 010. NSA suggests modifying Recommendation B(J) to
    clearly state the separate roles for those two organiwtions, nod changing the report to
    delete the potentially ambiguous "work with" language. Accordingly, we suggest that the
    Recommendation might state something such as:

           "We recommend that the Inspector General ofNSA continue to provide
           10 reports of investigat ion into substantiated misconduct by co ntractor
           personnel (or summaries of these reports) to the NSA Office of Security to
           enable the NSA Ollicc ofSccurity to report to DODCAF, as required."

    However, effective immediately all NSA OJO reports of contractor misconduct received
    by the ADS&CI will now be disseminated to DODCAF. The ADS&CI is also


                                    UNCLASSIFIED




              Report No. DODIG-2014-0601 48
                                UNCLASSIFIEIJ



imple111entiug u protm:ol to ensure thut OIG is noli lied when such n:p011s urc forwurdcd
to DODCi\F.

(U) We apprec iate the opportunity to comment on your Rcpmt and investigation.



                           2U ;t-b:.<.h
                                      ) . i!I-.IVI""""-'
                           ELfZABETH R. BROOKS
                                Chief of Stan·




                                UNCLASSIFIEIJ




          Report No. DODIG-2014-0601 49
AppendixH
Defense Human Resources Activity Response to Our
Draft Report


                                  DEPARTMENT OF DEFENSE
                             DEFENSE HUMAN RESOURCES ACTIVITY
                              DEFENSE MANPOWER DATA CENTER
                                4800 MARK CENTER DRIVE . SUITE 04E25-01
                                       ALE XANDRIA , VA 22350·6000



     MEMORANDUM FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL

     SUBJECT: An Assessment of Contractor Personnel Security Clearance Processes in the Four
              Defense Intelligence Agencies (Project No. D2013-DINT01 -0009.000)

             Thank you for the opportunity to provide comments to the recommendations in the draft
     report, An Assessment of Contractor Personnel Security Clearance processes in the Four Defense
     Intelligence Agencies (Project No. D2013-DINTOI-0009.000).

             The Defense Human Resources Activity and Defense Manpower Data Center comments
     to the report recommendations are included in the attachment. Please feel free to direct any
     questions to me, Mary Snavely-Dixon, at571 -372-0978 or rnary .m.sna\'ely-d ixon .civ <!P mail.mil.



                                                     ~~-~
                                                     Mary Snavely-Dixon
                                                     Director


     Attachment:
     As stated




                              Report No. DODIG-2014-0601 50
                                  RECOMMENDATIONS
                            PROJECT NO. D2013-DINT01-0009.000

Recommendation B.4: We recommend that the Director, Defense Human Resources Activity,
work with GSA to add EPLS/SAM to the set of databases being accessed by ACES.

Comments: Non-concur. This recommendation is premature since analysis of this data is
required to include value of data source in identifying issues impacting federal investigative
standards, and determining if the use of that data source meets legal, privacy, and Paperwork
Reduction Act requirements. Incorporating the Excluded Parties List/System for Award
Management into ACES would also require business analysis, software development, interface
development, testing and additional funding/resources to accomplish that work.

Recommendation E: We recommend that the Director, Defense Human Resources Activity,
develop software to automatically fl ag the personnel security adjudicative portion of JPAS that a
DCII file exists on a specific Subject.

Comments: Concur; however, recommended that this item be modified to develop software to
automatically flag the personnel security adjudicative portion of the Case Adjudication Tracking
System (CATS) that a Defense Central Index of Investigation (DCII) file exists on a specific
subject. CATS, and not the Joint Personnel adjudication System (JPAS), is the primary
personnel security system that the DoD Central Adjudication Facility (CAF) uses for
adjudication purposes. CATS is one component of the Defense Information System for Security
(DISS) family of systems.

Recommendation A.l: We recommend that USD (I) Develop and issue an overarching policy
governing JPAS operation.

Comments: Recommended that this item be modified to develop and issue an overarching policy
governing the System of Record for Personnel Security Clearances, which is currently the Joint
Personnel Adjudication System (JPAS). This is to avoid tying the policy to a specific system
(i.e. JPAS) since there is a planned transition from JPAS to the Defense Information System for
Security (DISS).




                         Report No. DODIG-2014-0601 51
Acronyms and Abbreviations

       ACES      Automated Continuing Evaluation System
         CAF     Clearance Adjudication Facility
         CIA     Central Intelligence Agency
        DCIS     Defense Criminal Investigative Service
        DCII     Defense Central Index of Investigations
        DHS      Department of Homeland Security
         DIA     Defense Intelligence Agency
         DIS     Defense Investigative Service
       DCIO      Defense Criminal Investigative Organization
      DISCO      Defense Industrial Security Clearance Office
      DISCR      Directorate for Industrial Security Clearance Review
      DMDC      Defense Manpower Data Center
         DNI    Director of National Intelligence
        DoE     Department of Energy
        DoD     Department of Defense
    DODCAF      DoD Consolidated Adjudication Facility
      DoDD      Department of Defense Directive
       DoDI     Department of Defense Instruction
      DOHA      Defense Office of Hearings and Appeals
         DoJ    Department of Justice
        DSS     Defense Security Service
          EO    Executive Order
       EPLS     Excluded Parties List System
         FBI    Federal Bureau of Investigation
        GRS     General Records Schedule
        GSA     General Services Administration
           IC   Intelligence Community
       ICPG     Intelligence Community Policy Guidance
          IG    Inspector General
     IRTPA      Intelligence Reform and Terrorism Prevention Act of 2004
       JPAS     Joint Personnel Adjudication System
        NAC     National Agency Check
      NARA      National Archives and Records Administration
       NGA      National Geospatial-Intelligence Agency
       NRO      National Reconnaissance Office
        NSA     National Security Agency
       OPM      Office of Personnel Management
       OMB      Office of Management and Budget
  PERSEREC      Defense Personnel Security Research Center
       SAM      System for Award Management
SCATTERED       The IC personnel security/access database
   CASTLES
         SCI    Sensitive Compartmented Information
        SEC     Office of Security, DIA
       SSBI     Single Scope Background Investigation
     USD(I)     Under Secretary of Defense for Intelligence



                          Report No. DODIG-2014-0601 52
             Whistle blower Protection
            U.S. DEPARTMENT OF DEFENSE
The Wllist/eblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD /G Director for
Whist/eb/owing & Transparency. For more information on your rights
and remedies against retaliation, go to the Wl!ist/eblower webpage at
              www.dodig.miljprogramsjwhistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressiona I@dodlg. mil; 703.604.83 24
                             DoD Hotline
                             800.424.9098

                            Media Contact
                Public.Affairs@dodig.mil; 703.604.8324
                         Monthly Update
                 dodigconnect-request@llstserve.com
                       Reports Mailing List
                 dodig__report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG




             Report No. DODIG-2014-0601 53
